Implications of Declining Mail Volumes for the
 Financial Sustainability of the Postal Service




                          September 29, 2010




Sponsored by U.S. Postal Service Office of Inspector General
             Risk Analysis Research Center
             Report Number: RARC-WP-10-006
U.S. Postal Service Office of Inspector General                                         September 29, 2010
Implications of Declining Mail Volumes                                                    RARC-WP-10-006



             Implications of Declining Mail Volumes for the
              Financial Sustainability of the Postal Service


                                             Introduction

Annual mail volume peaked in 2006 at 213 billion pieces. Since then, the number of
mail pieces has declined substantially. Amid the background noise of the economic
downturn, determining how much of this volume loss represents long-term electronic
diversion is difficult, but Boston Consulting Group (BCG) projects that these declines will
continue. BCG estimates mail volume will fall to 150 billion pieces over the next
10 years.1 Such a sustained volume decline is unprecedented.

The U.S. Postal Service has never operated in an environment of persistently declining
mail volumes, and the last time annual mail volume was below 150 billion pieces was
1986. The critical question is whether today’s Postal Service can remain solvent at
much lower volume levels.

The Postal Service is not currently profitable, although the financial picture is obscured
by the amounts improperly taken by the Office of Personnel Management to fund
benefit prepayments.2 The U.S. Postal Service Office of Inspector General (OIG) asked
the George Mason University School of Public Policy (GMU) to examine the financial
sustainability of the Postal Service under various volume scenarios. GMU’s work is
described in the following paper Implications of Declining Volumes for the Financial
Sustainability of the Postal Service.

The George Mason Model

The GMU research team created a flexible model that can do two critical things. First, it
assesses the financial position of the Postal Service at any volume level. Second, it
shows how applying different cost reduction alternatives can affect that financial
assessment. For example, the researchers examined how alternatives such as
optimizing the retail network, implementing 5-day delivery, and increasing productivity
would reduce the gap between the Postal Service’s costs and revenues at various
volume levels.3 Users of the model can also mix and match alternatives into “what if”
scenarios.

The research team used the model to analyze how volume levels of 150, 125, 100, and
75 billion pieces per year would affect the Postal Service’s financial sustainability. They

1
  The Boston Consulting Group, Inc., Projecting US Mail Volumes to 2020, March 2, 2010.
2
  See OIG reports The Postal Service’s Share of CSRS Pension Responsibility. Report Number RARC-WP-10-001,
January 20, 2010, and Federal Employees Retirement System Overfunding, Report Number FT-MA-10-001,
August 16, 2010.
3
  See Sections 11(a), (d) and (f) of the following paper.


                                                     1
U.S. Postal Service Office of Inspector General                                                September 29, 2010
Implications of Declining Mail Volumes                                                           RARC-WP-10-006


show that if mail volume declines and no other action is taken, price increases in excess
of inflation will be necessary to avoid insolvency. The risk is that price increases will tip
the Postal Service into a death spiral, where price increases drive out customers
necessitating further price increases. But GMU’s evidence suggests that this threat may
not be that severe. Modern economies can support higher price levels. Many posts in
developed countries maintain profitable mail businesses while delivering fewer pieces
and charging up to 86 percent more than the Postal Service. This is an encouraging
sign, and the study finds that the Postal Service is financially sustainable down to
volumes of 100 billion per year.

Options for Adapting to Volume Declines

We believe the model offers an objective framework to organize the debate about how
to respond to the current crisis. The available solutions fall into three broad options:

    1. Let the market dictate. Increase prices to the levels the market would bear to
       make the Postal Service break even as suggested by the GMU study. This option
       requires price increases above the levels allowed by the Postal Accountability
       and Enhancement Act.

    2. Introduce substantial changes to the Postal Service’s cost and revenue structure.
       Allow the Postal Service to implement its 10-year action plan announced in
       March 2010, giving the Postal Service the flexibility to cut delivery days, pursue
       new products, optimize its network, and undertake other initiatives.4

    3. Aggressively correct CSRS and FERS overpayments. Reform the Postal
       Service’s prefunding of its health and pension obligations by returning the
       amounts the Postal Service has overpaid and by allowing it to adopt the same
       funding targets commonly used in the private sector — 80 percent for pensions
       and 30 percent for retiree health care. This option can maintain the PAEA price
       cap.5

GMU’s analysis provides hope that the Postal Service can survive the anticipated
volume declines as long it is allowed to act on the options available for financial
sustainability.




4
 U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2, 2010.
5
 Analysis in Appendix A of the GMU study shows that if prefunding reform is combined with an effort to streamline
Postal Service’s retail network and modest Total Factor Productivity (TFP) growth, maintaining the PAEA price cap is
possible at a volume of 150 billion pieces per year.


                                                         2
IMPLICATIONS OF DECLINING MAIL VOLUMES
   FOR THE FINANCIAL SUSTAINABILITY

          OF THE POSTAL SERVICE




                    SEPTEMBER 2010




            PREPARED UNDER CONTRACT TO THE
    U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                                           2



Contents


1.      Introduction ............................................................................................................................ 5 

2.      Major Findings ....................................................................................................................... 6 

3.      Fixed and Variable Cost......................................................................................................... 7 

4.      Volume History ...................................................................................................................... 8 

5.      Financial Sustainability at Lower Volumes ......................................................................... 10 

6.      The Volume Mix Used in the Study .................................................................................... 12 

7.      The GMU Enhanced Rollforward Model ............................................................................ 13 

8.      The Base Year – FY 2009 .................................................................................................... 15 

9.      The Base Case ...................................................................................................................... 16 
        a.  Base case results ......................................................................................................... 17 
        b.  Year when volume level is reached ............................................................................ 19 

10.  Strategic Planning Implications ........................................................................................... 19 
     a.  Reduced income .......................................................................................................... 19 
     b.  Major functions ........................................................................................................... 20 
     c.  Fixed costs and the USO ............................................................................................. 21 
     d.  Street time ................................................................................................................... 21 

11.  Sensitivity Analyses ............................................................................................................. 22 
     a.  Total factor productivity ............................................................................................. 22 
     b.  Fixed costs .................................................................................................................. 23 
     c.  Own price elasticity .................................................................................................... 24 
     d.  Retail function cost ..................................................................................................... 24 
     e.  Mail processing variability ......................................................................................... 25 
     f.  Delivery frequency...................................................................................................... 26 
     g.  Salaries ........................................................................................................................ 27 
     h.  Time period over which volume decline takes place .................................................. 28 
     i.  Retiree health care costs.............................................................................................. 29 
     j.  Volume mix ................................................................................................................ 30 

12.  Conclusions .......................................................................................................................... 32 

Biography of Authors ................................................................................................................... 33 




GEORGE MASON UNIVERSITY                                                                                                SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                                  3



Tables

Table 1     International Comparison of the Price of a First-Class Stamp ..............................11 
Table 2     Cost Segments and Example Components ............................................................14 
Table 3     Base Year Volumes, Cost and Revenue and Adjusted Base Year
            Volume, Cost and Revenue after Allowing for a Price Increase to
            Breakeven ..............................................................................................................15 
Table 4     Cost Model Results for the Base Case ...................................................................18 
Table 5     Base Case Adjusted Total Revenue/Income and Average Revenue
            per Piece .................................................................................................................20 
Table 6     Base Case Adjusted Function Cost ........................................................................20 
Table 7     Base Case Street Time vs. In-Office Time ............................................................21 
Table 8     Sensitivity of Base Case Result to Cumulative 3 Percent Negative
            and Positive Changes in Cumulative TFP .............................................................22 
Table 9     Sensitivity of Base Case Result to Cumulative 10 Percent
            Reduction in Fixed Costs .......................................................................................23 
Table 10    Sensitivity of Base Case Result to a 50 Percent Decrease and
            Increase in Price Elasticities ..................................................................................24 
Table 11    Sensitivity of Base Case Result to a 33 Percent Reduction in Retail
            Costs.......................................................................................................................25 
Table 12    Sensitivity of Base Case Result to 83 Percent Variability in Mail
            Processing ..............................................................................................................26 
Table 13    Sensitivity of Base Case Result to Five Day a Week Delivery .............................27 
Table 14    Postal Service Average Productive Hourly Wage .................................................27 
Table 15    Sensitivity of Base Case Result to Cumulative 3 Percent Positive
            and Negative Changes in Postal Service Salaries ..................................................28 
Table 16    Sensitivity of Base Case Result to Changing the Forecast Year
            from 2020 to 2030 ..................................................................................................29 
Table 17    Sensitivity of Base Case Result to a $3 Billion Reduction in
            Retiree Health Care Costs ......................................................................................30 
Table 18    Sensitivity of Base Case Result to Changes in 2020 Mail Mix .............................31 




GEORGE MASON UNIVERSITY                                                                                      SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                      4


Figures

Figure 1     Mail Volume, 1925-2010 .........................................................................................9 
Figure 2     Annual Changes in Mail Volume, 1925-2009 .........................................................9 
Figure 3     Cost Model Results for the Base Case ...................................................................18 

Appendices

Appendix A   OIG Sensitivity Analyses
Appendix B   Description of GMU Enhanced Rollforward Model




GEORGE MASON UNIVERSITY                                                                             SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                           5



1.       Introduction

The recent decline in mail volume has given rise to concerns about the Postal Service’s long-
term financial sustainability. Mail volume peaked in 2006 at 213 billion pieces and then fell to
177 billion pieces over the next three years. The Postal Service’s latest volume estimate for
2010 is 170 billion pieces. If mail volume were to drop much further, the Postal Service could
enter a graveyard spiral of continuous price increases and volume declines. On the other hand,
the Postal Service could reach a new price-cost equilibrium. The primary purpose of this paper
is to show how further large declines in mail volume would increase the Postal Service’s per
piece (unit) costs and prices and how this would affect its financial sustainability. The paper’s
estimates of cost, price and sustainability are for volumes ranging from 150 billion down to
75 billion pieces. It assumes that prices would be increased annually to bring about financial
breakeven.1 The paper also examines the strategic planning implications of volumes declining to
these levels.

This analysis employs the Cost Rollforward Model developed by the Postal Service and used by
it and the Postal Regulatory Commission (PRC) to forecast costs in all rate proceedings
conducted under the 1970 Postal Reorganization Act since R80-1.2 The model has been used
again by the Postal Service in its July 6, 2010 exigent rate filing with the PRC. In addition to its
use in rate cases, we understand that the model is used by the Postal Service for internal
analyses. For the purposes of this study, major enhancements had to be made to the Cost
Rollforward Model, and we are calling the enhanced model the “GMU Enhanced Rollforward
Model.” These enhancements, which include the ability to calculate new breakeven volumes and
prices that reflect price elasticities, are discussed in Appendix B, along with documentation of
the input data for the GMU Model.




1
 This paper does not predict volumes; it simply explores the implications of declining volumes if they were to
occur.
2
    The model has undergone continuous improvements since it was first introduced.



GEORGE MASON UNIVERSITY                                                                       SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                 6


2.   Major Findings

        Many posts in developed countries in Europe and Japan have higher prices than in the
         United States. Their prices are as much as 86 percent higher when expressed in
         purchasing power parity. The mailing operations of these posts are almost all
         profitable. Thus, developed economies support these high postal prices.

        Our criterion for the financial sustainability of the Postal Service is that it will remain
         sustainable as long as its prices remain somewhat lower than the highest postal prices
         observed in other developed countries and its revenues cover its costs. Using the GMU
         Enhanced Rollforward Model, we have estimated the increase in USPS prices that
         would be needed to achieve breakeven at 150, 125, 100 and 75 billion pieces. Down to
         100 billion, the price increase over inflation needed to breakeven financially would
         increase prices to a level that is substantially lower than the highest prices that we have
         observed in developed countries. Therefore we find that the Postal Service would be
         financially sustainable down to 100 billion pieces. Our criterion for sustainability does
         not tell us whether the Service would be sustainable below 100 billion pieces.

        Assuming that volume continues to decline to the levels examined in this paper, the
         current Postal Accountability and Enhancement Act (PAEA) price caps will not permit
         the Postal Service to remain financially sustainable.

        It is expected that the variable cost of the Postal Service will decline along with volume
         and that, between 125 and 100 billion pieces, fixed costs will grow to become more
         than half of total cost. These should become a focus of management’s attention.
         Reducing fixed costs would moderate but not eliminate the above-inflation price
         increases required to breakeven.

        At lower volume levels, the decline in First-Class volumes, and especially single-piece
         First Class, will mean that the Postal Service will essentially cease being a two-way
         communications medium and will evolve into a broadcast medium. This would have
         very important implications for its basic structure including the processing,
         transportation and retail networks.


GEORGE MASON UNIVERSITY                                                           SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                             7


          Revenue losses due to declining volumes will have profound implications for repaying
           debt and shouldering other legacy costs such as prefunding annuitant health benefits
           and the prior year portion of workers’ compensation benefits. In addition, continuing
           losses and expenses not related to “moving the mail” from Periodicals and other loss-
           making categories of mail, operating 36,000 retail outlets, Alaska bypass mail, and
           other money losing activities will become an increasing burden.

          As prices increase in a declining volume scenario, reduced rates for nonprofit mail
           (which are cross-subsidies from regular mail) will become increasingly burdensome for
           regular mail users who will be experiencing significantly higher rates.

          As volume declines, the mail processing, transportation and retail functions will shrink
           considerably but delivery will shrink much less, leaving it larger than the other major
           functions combined. This has obvious implications for strategic planning. The
           network will have to be redesigned and R&D should concentrate on delivery. Further,
           the in-office portion of delivery will shrink with volume, but the street portion will
           remain largely intact. This means that industrial engineering R&D for street time cost
           reductions should become a priority.


3.    Fixed and Variable Cost

When the Postal Service’s volume declines it can be expected that its variable costs and total cost
will decline.3 Notwithstanding this decrease in total cost, the average cost per piece (average
unit cost) will increase because the fixed costs will be spread over fewer pieces.

The GMU Enhanced Rollforward Model uses volume as an input and calculates the resulting
total cost of the Postal Service by determining the variable costs that result from the input
volume while holding fixed costs constant. Thus, it is a short term model in economic parlance.
When volume declines by a large amount over time, economists expect fixed costs to decline as


3
  The decline in variable cost may lag the volume decline by a year or so, because it is difficult to cut work hours
over a short period of time. The Postal Service appears to have done a remarkable job in cutting variable cost during
the very large volume decline associated with the recent recession. For example, volume declined 13.5 percent in
2009 and work hours declined 8.8 percent against an anticipated decline in variable costs of 8.1 percent.



GEORGE MASON UNIVERSITY                                                                       SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                              8

well.4 Since we will be looking at the effects of large volume declines, we explored developing
a model that allowed for changes in fixed costs (or what economists call a long run cost model).
We were unable to estimate the fixed cost changes over the long run by examining historical
postal cost data because the attribution methodology (that defines variable and fixed costs) has
continually been refined over the years, thus preventing comparison between current costs and
costs from previous periods. Thus, a short run model like the GMU Enhanced Rollforward
Model calculates an upper bound on the increase in unit cost and prices that would result from a
large decline in volume. We have compensated for the lack of fixed cost changes in the model by
conducting sensitivity analyses to see the effect of fixed cost changes. We can say a priori that
any decrease in fixed costs would partially offset the unit cost and price increases that would
occur as volume declined.


4.       Volume History

Figure 1 shows that since 1925 volume has grown almost nine fold to the peak year of 2006.
Since then, volume has declined by 17 percent through 2009 and the decline has continued into
2010.5 There is uncertainty about how much of the recent decline is related to cyclical events
associated with the great recession of 2007-2009 as opposed to the secular trend of substitution
that has been noticeable for many years.6 This uncertainty will not be resolved in the United
States until the economy resumes growth for a sustained period. Figure 2 shows the annual
change in total volume since 1925. It can be seen that actual volume declines have been




4
    This is what is meant by the expression all costs are variable in the long run.
5
    Through Quarter 3 of 2010, volume fell an additional 6.5 billion pieces.
6
 A highly respected postal econometrician at Finland Post recently wrote: “The deep global economic recession
experienced in 2009 has lowered letter volumes nearly everywhere in the developed world …. It can be clearly
discerned that some of the effects of the economic crisis have been interpreted as substitution. It is, obviously,
difficult to separate these matters. At least it can be said of Finland that the drop in letter volume in 2009 (total
addressed letters -7%) was almost entirely the result of the economic crisis (GDP volume fell -8%).” He goes on to
say that he expects substitution to begin again when the recession ends. See “Does the Level of Price Elasticity
Change with the Progression of Substitution?” Heikki Nikali, presented at the CRRI Conference on Postal Delivery
Economics, Porvoo, Finland, June 2-5, 2010.



GEORGE MASON UNIVERSITY                                                                        SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                                                                            9

associated with negative growth of the GDP (1930-1933, 1975, 1991, 2001, 2007-2009). The
only exception was in 1946 when the nation was shifting from a war to a peace time economy.7

                                                                                   Figure 1
                                                                            Mail Volume, 1925-2010

                          250



                          200
      Pieces (billions)




                          150



                          100



                           50



                           -




                                                                       Figure 2
                                                       Annual Changes in Mail Volume, 1925-2009

    15%

    10%

     5%

     0%
                                                                                                                                                          1997
                                                                                                                                                                   2001
                                                                                                                                                                          2005
                                                                                                                                                                                 2009
                           1925
                                  1929
                                         1933
                                                1937
                                                       1941
                                                              1945
                                                                     1949
                                                                             1953
                                                                                    1957
                                                                                           1961
                                                                                                  1965
                                                                                                         1969
                                                                                                                1973
                                                                                                                       1977
                                                                                                                              1981
                                                                                                                                     1985
                                                                                                                                            1989
                                                                                                                                                   1993




     -5%

    -10%                                                      End of                                              1973‐5                                            2001 
                                                              WWII                                              Recession                                        Recession 
    -15%                                                                                                         after Oil                                         & 9/11 
                                  Great                                                                          Embargo                                         & Anthrax
    -20%                          Depression




7
  It is worth noting that postal volume did not turn negative during the recessions in the 1940s, 1950s and 1960s. In
addition, it did not turn negative in the recession of 1981 when volume was growing very rapidly owing to the
introduction of worksharing discounts.



GEORGE MASON UNIVERSITY                                                                                                                            SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                              10


5.       Financial Sustainability at Lower Volumes

As noted above, volume declines will mean that the Postal Service’s average price will need to
increase if the Postal Service is to break even financially. In this section we define “financial
sustainability” in terms of the increase in price that would be implied by lower volumes.

U.S. Postal Service unit costs are among the lowest in the industrial world.8 This cannot be
explained by technology because posts in the other developed countries all use similar sorting
equipment and operate in a similar fashion.9 An important part of the explanation lies in
economies of scale. All posts in developed countries are characterized by a large amount of
fixed costs which in turn are due in large part to the delivery function.10 When volume increases,
the average cost per piece drops as there are more pieces to share the fixed cost burden. The
United States has the second highest number of pieces per capita in the world, and this explains
to a large degree why its costs and prices are among the lowest.11 The fact that prices are
significantly higher in most other developed countries is an encouraging sign for the financial
sustainability of the U.S. Postal Service, because it means that in a modern economy, these
prices are affordable. If volumes decline to the levels that we are analyzing and U.S. postal
prices increase to achieve breakeven, they will approach the current level of other posts in the
developed world. We believe that if U.S. prices do not significantly exceed those prices, then the
U.S. Postal Service will remain sustainable at current levels of service.

Table 1 shows the 2007 mail volume per capita for 19 posts in developed countries as a
percentage of the U.S per capita volume for 2007. It also presents each post’s 2008 price for a
first class stamp in 2008 purchasing power parity.12 The table displays the purchasing power

8
 See “The Role of Scale Economies in the Cost Behavior of Posts,” Robert Cohen, et al., Proceedings of
Wissenschaftliches Institute fur Kommunikationsdienste GmbH (WIK) 8th Koenigswinter Seminar on “Regulating
Postal Markets-Harmonized vs. Country Specific Approaches,” February 2004.
9
 One difference is that in Europe and Japan many carriers use bicycles instead of automobiles because in their urban
environments it is a cost effective mode of delivery.
10
     The time it takes a carrier to move between stops is fixed since it is independent of the volume.
11
  Switzerland mails more pieces per inhabitant. Other factors include labor costs, service performance, post offices
per capita, profit levels and miscellaneous costs such as prefunding retiree health care.
12
  The Big Mac comparison is a common and informal way to compare the purchasing power of a currency in
another country. If, for example, a Big Mac cost four euros in France and three dollars in the United States, the
dollar would have the purchasing power of 1.33 euros in France.



GEORGE MASON UNIVERSITY                                                                            SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                        11

parity price in dollars. Purchasing power parity is the preferred way to compare prices between
countries with different currencies.13

                                             Table 1
                   International Comparison of the Price of a First-Class Stamp
                                                  Per
                                                Capita
                                   Prices in  Volume as
                                  Purchasing    a % of
                                    Power       U.S. Per     EBIT        EBIT
                                    Parity      Capita      Margin      Margin
                  Country          (U.S. $)     Volume       2007*       2008*
                  New Zealand        0.32         33%          5.8%       4.6%
                  Australia          0.37         32**         na          na
                  Spain              0.41         20           na          na
                  US                 0.42        100          (6.8)      (3.7)
                  Netherland         0.49         49           5.6        5.7
                  Luxembourg         0.53         57           na          na
                  Great Britain      0.54         46           0          0.9
                  Ireland            0.56         24           na          na
                  Sweden             0.59         49           6.3        3.6
                  Belgium            0.59         na           na          na
                  France             0.60         42           5.9        2.6
                  Austria            0.62         43          11.5       10.1
                  Germany            0.64         35           3.1        3.4
                  Denmark            0.64         40           na          na
                  Portugal           0.67         16           na          na
                  Japan              0.69         25           na          na
                  Italy              0.71         14           0.7       (0.3)
                  Finland            0.72         57           5.2        4.4
                  Norway             0.78         53           0.3       (0.4)
                  Note: The first unit of postage in these countries is 20 grams vs. 28 grams
                        (1 ounce) in the United States.

                  *  Mail operations only. EBIT margin is EBIT (earnings before interest and
                     taxes) divided by revenue.
                  ** Australia 2008 volume
                  na not available


13
  Exchange rates often vary widely over time. Purchasing power parities, however, remain remarkably constant
over time between countries that do not have large inflation rates. For example, they changed by less than 1 cent
over 2007, 2008 and 2009 between the United States, Germany and France. The purchasing power parity data used
in Table 1 are from the OECD Statistical Abstracts, Table 4, PPPs and exchange rates.



GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                         12

The countries in the table are listed in the order of their purchasing power parity price. It can be
seen that these countries all have much lower volume per capita than the United States and in
most cases they have less than half the per capita volume. The purchasing power parity prices of
the 15 posts with higher prices than the USPS range from 17 percent higher than the U.S. price to
86 percent higher. The last two columns show the EBIT14 profit margin (operating earnings) for
each post’s mailing operations in 2007 and 2008.15 Of the 11 posts for which EBIT data is
available, two were unprofitable for one year and the United States was unprofitable for both
years. This is important because it shows that unlike the United States, the prices in effect in
these countries are not below cost.

As noted, 15 of the posts in the table have a First-Class stamp price in purchasing power parity
that is greater than the U.S. price. Five have prices between 50 and 59 cents, six have prices
between 60 and 69 cents, and three have prices higher than 70 cents. Obviously, economies in
industrialized counties will support these prices. We take this to mean that the U.S. Postal
Service would remain sustainable if its prices did not exceed this range by a significant amount.
In this paper we will use the criterion that the Postal Service will remain financially sustainable
as long as its stamp price does not exceed 69 cents in 2008 dollars. This means that it should not
increase more than about 65 percent. In the interest of being conservative, we have drawn a line
at 69 cents while the data would arguably support a higher figure. This criterion tells us at what
price levels the Postal Service would be financially sustainable. It does not, however, give us a
threshold for when price levels would become financially unsustainable.


6.       The Volume Mix Used in the Study

In addition to total volume, an explicit volume mix (by product) is required to operate the
Enhanced GMU Model.16 The Boston Consulting Group (BCG) estimated that the USPS would

14
  EBIT is an indicator of a company’s profitability, calculated as revenue minus expenses, excluding tax and
interest. EBIT is also referred to as “operating earnings.” Many posts in the developed world have several
businesses or are owned by firms that have several businesses. The EBIT margins shown are for the mailing
operation only.
15
  The volumes, prices and EBIT margins are from The Evolution of the European Postal Market since 1997, Annex,
Country Fiches, August 2009, ITA Consulting GmbH and WIK Consult GmbH. This paper was done for the
European Commission. The table displays data for all developed countries that were included in that paper.
16
     A volume mix is the percentage of total volume that each product represents.


GEORGE MASON UNIVERSITY                                                                      SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                            13

have 150 billion pieces for 2020.17 BCG studied the volume trends of the classes of mail and
forecast the following specific volume mix by class for 2020: First-Class Mail dropping
37 percent, advertising mail growing slightly and parcels growing about 4 percent per year. The
growth in parcel volume would have a significant impact on revenue and net income because of
their high revenue per piece and their high per piece contribution to overhead. This would
mitigate somewhat the impact on postal finances from the First-Class volume decline. We
extrapolate the BCG volume mix to arrive at a mix for 125, 100 and 75 billion pieces. We also
show the sensitivity of postal costs to a different volume mix estimate.

If First-Class Mail volume declines 37 percent when total volume drops to 150 billion pieces in
2020, it would mean that there would be even further future declines in First-Class Mail and
especially single piece as total volume approaches 100 billion pieces. Thus the Postal Service
would become almost entirely a broadcast medium with little single-piece volume that today
makes it a communication exchange medium. This transition would have profound implications
for the basic structure of the Postal Service affecting service levels, transportation, retail, and
mail processing facilities and hours of operation.18 It would also argue for less frequent delivery.
All of these changes would reduce expenditures and make prices more affordable. These
observations serve to reinforce the point made in Section 3 about short run and long run cost
models.


7.    The GMU Enhanced Rollforward Model

The version of the model used in this analysis is based on the public version of the Cost
Rollforward Model that was used in the R2006-1 rate proceeding at the PRC. We have updated
the model by substituting products for subclasses as the Postal Service has changed the Cost and
Revenue Analysis (CRA) report reflecting the concepts used in the PAEA.


17
  See “Projecting Mail Volumes to 2020,” Boston Consulting Group, March 2, 2010,
http://www.usps.com/strategicplanning/_pdf/BCG_Narrative.pdf.
18
  With little single-piece volume, the Postal Service would need to do little outgoing sorting. The imperative to sort
mail on the evening shift would diminish and the Postal Service could shift much of its operations to the day shift,
which would affect transportation designed around the last dispatch of value. It would permit more consolidation
for transportation. Much less air transport would be needed. Facilities could be more easily consolidated because
there would be less emphasis on speed of delivery.



GEORGE MASON UNIVERSITY                                                                        SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                        14

The model projects future costs from base year costs reflecting changes due to
      Volume by product
      Cost level (labor and other resources)
      Efficiencies due to cost reduction programs
      Nonvolume workload (e.g., number of post offices and number of delivery stops)
      Servicewide costs (depreciation, workers’ compensation, escrow requirements, etc.)

The model accepts these factors as inputs and applies them to the Postal Service cost system of
18 cost segments and about 170 cost components. The segments are listed below along with an
example of a component that belongs to each segment:

                                           Table 2
                         Cost Segments and Example Components
   Segment                                         Example of Component
   1 – Postmasters                                 Postmasters EAS 23 and below
   2 – Supervisors and Technical Personnel         Higher Level Supervisors
   3 – Clerks and Mail handlers, CAG A-J           Mail Processing
   4 – Clerks, CAG K                               Clerks, CAG K
   6 – City Delivery Carriers, In- Office          In-Office Direct Labor
   7 – City Delivery Carriers, Street              Network Travel
   8 – Vehicle Service Drivers                     Vehicle Service Drivers
   10 – Rural Carriers                             Equipment and Maintenance
                                                   Allowance
   11 – Custodial Maintenance                      Equipment Maintenance
   12 – Motor Vehicle Service                      Supplies and Materials
   13 – Miscellaneous Operating Costs              Carfare and Tolls
   14 – Purchased Transportation                   Highway
   15 – Building Occupancy                         Rents
   16 – Supplies and Services                      Equipment
   17 – Research & Development                     R&D
   18 – Administration and Regional Operations     Headquarters
   19 – General Management Systems                 Supplies &Services
   20 – Other Accrued Expenses                     Equipment Depreciation

See Appendix B for a detailed description of the GMU Model, including the Cost Rollforward
Model and its enhancements developed for this paper.




GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                              15


8.    The Base Year – FY 2009

In this study the base year for the GMU Enhanced Rollforward Model is FY 2009. This means
that the Postal Service volumes, costs and revenues from the CRA for that year are the starting
point. In FY 2009 the Service incurred a loss of $3.8 billion or 5.6 percent of revenue. We first
increase prices by 5.6 percent to allow for breakeven in 2009. This initial price increase causes
volumes, costs and revenues to decline because of the effect of price elasticity.19 Thus, it is
again necessary to increase prices to achieve breakeven.20 We then arrive at the adjusted
volume, cost, revenue and price increase. It can be seen in Table 3 that a 6.5 percent increase in
the average revenue per piece would have been required to achieve breakeven in 2009.21 In all
cases we go through this two-step process in estimating the price increase necessary to break
even, first raising rates and calculating the effects of elasticity on volumes and costs and then
raising rates for a second time.

                                        Table 3
       Base Year Volumes, Cost and Revenue and Adjusted Base Year Volume, Cost
              and Revenue after Allowing for a Price Increase to Breakeven
                                     (2009 dollars)
                                                           After Mailer Response to
             Item                   Initial Value                Price Increase
     Volume                            177.5 B                      173.0 B
     Cost                                            $71.9 B                               $70.7 B
     Revenue                                         $68.1 B                               $70.7 B
     Profit/(Loss)                                  ($ 3.8 B)                             ($ 0.001 B)
     Price Increase Required to                         5.6%                                  6.5%
     Break Even


19
  The own price elasticities for market dominant products are from the January 20, 2010 submission to the PRC by
the Postal Service, and the competitive product elasticities were furnished on a confidential basis to the Office of
Inspector General by the Postal Service.
20
   This iteration is similar to that in the rate proceedings conducted under the old Postal Reorganization Act where
future costs were forecast by the model and then an initial price increase was calculated so that revenues and costs
would be equal. This increase causes volumes and costs to decline and so a second price increase is introduced.
Theoretically this iteration could continue as the ultimate breakeven price is approached. As a practical matter the
iteration is stopped when the costs and revenue are in virtual balance.
21
  In a sense this means that our estimation of future price increases required by future decreases in volume starts in
a hole because this amount must be added to any price increase needed to offset the losses that would result from a
further decrease in volume from 2009 levels.



GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                        16


9.    The Base Case

The base case is for a volume forecast of 150, 125, 100 and 75 billion pieces in the year 2020
using the BCG mix. The base case assumes Consumer Price Index (CPI)-based changes for
labor cost and other cost levels beyond 2009, and consequently our cost results are in real 2009
dollars. Similarly, CPI-based price increases are assumed to occur each year, so revenues are
also in real 2009 dollars. In addition, there are no allowances for improvements in efficiency.
However, we incorporate the costs of changes to the nonvolume workload measures including
the number of delivery stops and the number of post offices. Delivery stops are growing with
household formations, and the number of post offices has been slowly declining. Nonvolume-
related costs have been projected to the year 2020 and are discounted to FY 2009 levels
assuming an average annual CPI increase of 3.0 percent.

The most significant change from the 2009 CRA is the treatment of retiree health care costs. The
Postal Service pays the employer’s share of health care premiums for Postal Service retirees.
Historically, the Postal Service has made these premium payments when they came due on a
“pay-as-you-go” basis. The PAEA required the prefunding of these payments. Under the
PAEA, the Postal Service is required to make substantial prefunding payments of more than
$5 billion annually through FY 2016 to a fund for retiree health benefits while it continues to pay
for current retirees. After FY 2016, payments for current retirees will come from this fund, and
the Postal Service will prefund the cost of retiree health care benefits that employees earn each
year and make amortization payments for any unfunded liability.

The Postal Service succeeded in making the prefunding payments due in 2007 and 2008, but
because of the Postal Service’s financial difficulties, Congress substantially reduced the payment
required in 2009 by $4 billion. A similar reduction may be approved this year. In developing
the model we debated how much to assume the Postal Service would spend for retiree health care
in the future. Given its current financial situation, it seems unlikely the Postal Service will be
able to meet the PAEA’s schedule, but it is not yet clear what will happen.22 We considered

22
   The Office of Inspector General has asserted that the Postal Service has been overcharged for its pension
payments by $75 billion, and the overpayment could potentially be used to cover unfunded retiree health care
liability. A subsequent PRC analysis agreed that the Postal Service had been overcharged but estimated the amount
at $50 to $55 billion using a different methodology.



GEORGE MASON UNIVERSITY                                                                     SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                17

assuming the Postal Service would continue to fund on a pay-as-you-go basis, but such a change
would require legislation. Ultimately, because of the uncertainty, we decided to assume the
Postal Service would continue to make payments as required according to the transition assumed
by the PAEA. We used the estimated 2020 payment provided by the Office of Personnel
Management to the Government Accountability Office.23 This payment, a combination of
current employee costs and an amortization payment, is assumed to be $7.3 billion in 2020,24 not
much more than the projected pay-as-you-go payment of $6.4 billion. The sensitivity of our
retiree health care assumption is examined below.

The base case also includes a change in the model from the way it was normally run in rate cases
for what are called longer run costs.25 These are costs such as floor space that are allocated to
mail categories based on volume but whose total costs are not expected to change in the short
term. Since this analysis is focused on long-term cost changes, we allow these costs to vary with
volume in total as well as by mail category. Thus, the model recognizes three kinds of costs:
short run variable, longer run variable and fixed costs.


a.       Base case results
The model results for the base case are shown in Table 4 and in Figure 3. For 150 billion pieces,
the table shows that volume would drop to 136.8 billion pieces as a result of the elasticity
response to increased prices and costs and revenues would drop to $67 billion in 2009 dollars
after the required price increase. Real (or inflation adjusted) prices would have to increase by
24.3 percent or 2 percent annually. It appears that at the volume levels of 150, 125 and 100
billion pieces, the Postal Service would be financially sustainable according to the criterion set
forth above. It can be seen in Figure 3 that below 100 billion pieces, the required rate increases
slope sharply upward. At 75 billion pieces, it would require more than doubling prices. Our
criterion does not tell us whether the Service would be financially sustainable at that level.26 The

23
  U.S. Government Accountability Office, USPS Strategies and Options, Report No. GAO-10-455, April 2010,
http://www.gao.gov/new.items/d10455.pdf.
24
     These costs are also discounted to FY 2009 levels assuming an average annual CPI increase of 3.0 percent.
25
  These are also called “PESSA” costs in cost model jargon. This acronym stands for property, equipment,
supplies, services, and administrative.
26
  It should be noted that Postal Service rate increases for major subclasses have been as high as 33 percent in the
past.


GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                            18

table also shows the number of work years that would be used at each volume level. In 2009 the
Postal Service would use 704,000 work years in a breakeven scenario, and it can be seen that the
number of workers will decline substantially if volume drops to the levels examined. They
would drop even further if the Service manages to reduce some of its fixed costs.

                                              Table 4
                               Cost Model Results for the Base Case
                                            (billions)
                                                 Breakeven     Annual
                                                  Revenue     Revenue
                         Volume      Cost &       Increase    Increase               Number of
                           after     Revenue      Required Required                    Work
          Initial          Price      (2009        Above       Above                   Years
          Volume         Increase    Dollars)       CPI         CPI                    (000)
           150            136.8       $67.1         24.3%       2.0%                    636
             125          108.6           60.0           39.9           3.1             564
             100           81.3           53.1           65.5           4.7             495
             75            55.5           46.7        113.4             7.1             429



                                           Figure 3
                              Cost Model Results for the Base Case
                   $80                                                                   120%
                                                                                113.4%
                   $70
                                                                                         100%
                   $60
                                                                                         80%
                   $50
                                                                65.5%
                   $40                                                                   60%

                   $30
                                                 39.9%                                   40%
                   $20
                                  24.3%
                                                                                         20%
                   $10

                   $-                                                                    0%
                             150 B          125 B            100 B            75 B
                                                    Volume




GEORGE MASON UNIVERSITY                                                                SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                           19

As Table 4 shows, if volume declines, even to 150 billion pieces, there will have to be real price
increases (i.e., prices must be increased above inflation). This means that the PAEA price cap
will not allow the Postal Service to be financially sustainable through rates alone if volumes
decline.27 Keeping the inflation level cap for price increases with declining volumes would
mean that direct or indirect tax payer subsidies would be required or unprecedented cost cutting
would be needed for financial sustainability.


b.    Year when volume level is reached
The annual price increase required depends on the year the volume level will be reached. We
have arbitrarily assumed that year would be 2020. However, the model is essentially atemporal.
So the target year could be 2030, 2040, etc. If the target year was later than 2020, the annual
change required for breakeven price increases would decline.


10. Strategic Planning Implications


a.    Reduced income
As volume declines, total revenue will decline in parallel. In addition the average revenue per
piece will increase (assuming breakeven prices are charged). Table 5 shows the adjusted (taking
into account price elasticities) breakeven revenue/income at the volumes examined and average
revenue per piece in 2009 dollars. Declining revenue will have profound implications for
repaying debt and shouldering legacy costs such as prefunding annuitant health benefits and the
prior years’ portion of workers’ compensation benefits. The base case assumptions for the GMU
Model do not include the repayment of debt, but they do include paying for retiree health
benefits. In addition, continuing losses and expenses not related to “moving the mail” from
Periodicals and other loss-making categories, operating 36,000 retail outlets, Alaska bypass mail,
etc. will become an increasing burden. Finally, reduced rates for nonprofit mail are cross-
subsidies from ordinary mail and funding these cross-subsidies will become increasingly
burdensome for ordinary mail because of their average price increase.

27
  Totally unexpected efficiencies (not involving a reduction in the Universal Service Obligation) such as a large
increase in Total Factor Productivity could be achieved which would obviate the need for above inflation increases.
This is deemed highly unlikely in the face of large decreases in volume.



GEORGE MASON UNIVERSITY                                                                       SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                             20


                                                Table 5
            Base Case Adjusted Total Revenue/Income and Average Revenue per Piece
                                             (2009 dollars)
                                  2009
     Initial Volume              177.5 B        150 B           125 B          100 B          75 B
     Adjusted*                   $70.7 B       $67.1 B         $60.0 B        $53.1 B        $46.7 B
     Breakeven
     Revenue/Income
     Adjusted* Average             40.9¢         49.0¢           55.2¢          65.3¢         84.2¢
     Revenue per Piece
              * After taking into account price elasticities and raising prices to breakeven


b.      Major functions
Declining volumes will have a significant impact on the relative cost of the major functions as
shown in Table 6. It can be seen that mail processing declines almost proportionately with
volume. Transportation has more fixed cost, so it does not decline as much. As volume
declines, delivery will decline comparatively slowly as it is mostly fixed. The remaining costs
will grow as a percentage of total costs as the major functions shrink. This has important
implications for the network configuration and related transportation, the organization of
delivery routes, investment and R&D expenditures.28

                                                 Table 6
                                    Base Case Adjusted Function Cost
                                              (2009 dollars)
                                  2009
     Initial Volume              177.5 B       150 B          125 B                    100 B             75 B
     Mail Processing             $ 21.2 B     $ 16.4 B       $ 12.7 B                  $ 9.3 B           $ 6.4 B
     Transportation                  5.9              5.4               4.1              3.0               2.1
     Delivery                      28.8              25.8             23.4              21.2             19.3
     Retail-Window                   3.8              3.4               3.1              2.8               2.6
     Service



28
  For example, as volume drops, variable costs on delivery routes will drop, allowing each carrier to cover more
stops. As mail processing activity declines, facilities will be consolidated so that they continue to have a critical
mass. This in turn will reduce the amount of transportation runs that are needed. As single-piece volumes decline,
less window service will be needed. Finally, as mail processing, transportation and window service decline, there
will be much less need to conduct R&D in these areas.



GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                     21

c.    Fixed costs and the USO
Almost half of the Postal Service’s fixed costs are in the Postmaster segment (6.4 percent) and
the street portion of the City and Rural Delivery segments (39 percent). They are the main costs
underlying the Universal Service Obligation (USO) of access to window service and delivery
frequency. Thus, reducing these fixed costs means reducing the USO which is politically
unpopular and requires the explicit (or at least implicit) approval of Congress. The authors have
pointed out in a previous paper that a profit maximizing U.S. Postal Service would be able to
save about $6 billion annually if it were allowed to reduce delivery to three days per week and
substitute rural carrier retail service for the 8,600 CAG K&L post offices.29 This is about 13
percent of the estimated $53 billion in revenue that the Postal Service would require to
breakeven at 100 billion pieces. Reducing the USO burden of the Postal Service would greatly
lessen the impact of declining volumes on rate payers. The fixed costs that underlie the USO are
conceptually easy but politically very difficult to cut.


d.    Street time
Delivery includes both the largely variable in-office and the largely fixed street components. As
volume declines, the in-office portion drops because it is almost all variable. In contrast, the
street portion is largely fixed and so it becomes a larger percentage of delivery costs. This means
that street time will become by far the largest function. This in turn means that it should become
the focus of research on how to reduce its cost. Improved delivery vehicles could help, but it
seems mostly to be an industrial engineering problem.

                                              Table 7
                              Base Case Street Time vs. In-Office Time
                             2009
     Initial Volume         177.5 B       150 B         125 B        100 B                      75 B
     In-office               29%           27%           25%          23%                       20%
     Street                   71%             73%              75%              77%             80%



29
  See “Estimates of the Current Cost of the USO in the U.S.,” Robert Cohen and Charles McBride, Study on
Universal Service and the Postal Monopoly, George Mason University School of Public Policy, November 30, 2008
http://digilib.gmu.edu:8080/dspace/handle/1920/3477. The CAG (cost ascertainment group) level of a post office
indicates how much revenue it generates. CAG K&L post offices bring in the smallest amount of revenue.



GEORGE MASON UNIVERSITY                                                                  SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                            22


11. Sensitivity Analyses

In every complex analysis about events which have not taken place, assumptions have to be
made about the value of variables used in the analysis. In this section, we present the sensitivity
of the base case results to different values of the most important variables so that their relative
importance can be seen. In addition, the reader may be interested in seeing the base case results
with different values for these variables, and the sensitivity analyses should allow this.

a.       Total factor productivity
In spite of the fact that volume has experienced an overall decline of 12 percent during the recent
decade (ending in 2009), total factor productivity (TFP) improved at an average annual rate of
1.1 percent or 10.7 percent cumulatively. It is unclear if improvements in TFP will continue at
this rate, especially if volume continues to decline. In the previous decade, the average annual
growth of TFP was only 0.2 percent for a cumulative total of 2.1 percent.30 This small increase
occurred during a decade of steadily improving volume.31

In this study, TFP is assumed to remain unchanged in the base case. To see how sensitive the
base case result is to this assumption, TFP is allowed to increase and decline by a total of
3 percent32 over the period from 2009 to 2020. The results are shown in Table 8.

                                              Table 8
                                Sensitivity of Base Case Result to
              Cumulative 3 Percent Negative and Positive Changes in Cumulative TFP
                                       -3% TFP                        Base Case                       +3% TFP
         Initial        -3% TFP       Breakeven        Base Case      Breakeven        +3% TFP        Breakeven
         Volume           Costs         Increase         Costs         Increase          Costs         Increase
        (billions)       ($ 2009)     Above CPI         ($ 2009)      Above CPI         ($ 2009)      Above CPI
           150            $68.5            28.7%          $67.1            24.3%         $65.7            19.9%
           125             61.2            44.9            60.0            39.9            58.7           34.8
           100             54.3            71.6            53.1            65.5            51.9           59.3
            75             47.8           121.6            46.7          113.4             45.6          105.2

30
     The cumulative total increase for TFP in the 1980s was 0.3 percent and in the 1970s it was 6.9 percent.
31
  Cumulative volume growth was 26 percent for the decade. Volume was negative during this decade only in 1991
in response to a 25 percent rate increase.
32
     This is 0.296 percent compounded annually over the period.



GEORGE MASON UNIVERSITY                                                                           SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                23

Obviously, the growth of TFP would be very important to the financial sustainability under these
reduced volume scenarios. If it were to decline even at the low compound rate that we have
used, the breakeven price increase becomes much larger, but the Postal Service remains
financially sustainable under our criterion for the 150 and 125 billion piece cases. The
100 billion piece case falls outside of the range specified in our criterion of sustainability by a
small margin, but the 75 billion piece case falls outside the range by a large margin. In contrast,
improving TFP by a total of 3 percent over the 11-year forecasting period would greatly reduce
the price increases that would be required for the Service to break even financially.


b.   Fixed costs
Forty percent of total Postal Service costs were fixed in 2009. The GMU Enhanced Rollforward
Model reduces variable costs as volume declines and does not change the fixed costs.
Consequently, fixed costs grow as a percentage of total costs. It is likely that management would
make strong efforts to reduce fixed costs if volume declined to the levels modeled in this paper.
It was noted above that 40 percent of all fixed costs are in the street portion of the delivery
function. These costs are difficult, but not impossible, to reduce. Administrative and higher
level supervision are also fixed, and most postmaster costs are largely fixed. To show the
sensitivity of the base case results to reductions in fixed cost, we reduce them by a cumulative
10 percent. The results are shown in Table 9 below.

                                             Table 9
                               Sensitivity of Base Case Result to
                         Cumulative 10 Percent Reduction in Fixed Costs
                                                                               Breakeven
                                                      Fixed      Costs with     Increase
                                       Base Case     Cost as a   10% Fixed     Above CPI
             Initial      Base Case    Breakeven     Percent        Cost       with 10%
             Volume         Costs       Increase     of Total    Reduction     Fixed Cost
            (billions)     ($ 2009)    Above CPI       Cost       ($ 2009)     Reduction
               150          $67.1         24.3%         40.3%      $65.0          17.9%
               125           60.0         39.9          45.3         57.8         31.6
               100           53.0         65.1          51.6         50.8         54.0
                75           46.7        113.4          59.2         44.3         96.0




GEORGE MASON UNIVERSITY                                                            SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                              24

It can be seen that the reduced fixed costs become a larger portion of total cost as volume falls.
Thus, the effect on the required price increase also increases as volume declines. At 100 billion
pieces the required price increase drops by 21 percentage points when fixed costs are reduced by
10 percent.


c.       Own price elasticity
A recent paper by the econometrician Heikki Nikali of Finland Post concludes that the further
substitution has progressed, the lower price sensitivity will be.33 Lower elasticities would, of
course, lower the required rate increases in our base case. Nevertheless we examine the
sensitivity of the base case results to higher elasticities in Table 10. It can be seen that if
elasticities were 50 percent higher than the ones we used, the price increases required by the 100
and 75 billion piece scenarios would both be greater than our financial sustainability criterion.

                                               Table 10
                                 Sensitivity of Base Case Result to a
                        50 Percent Decrease and Increase in Price Elasticities
                                                   Breakeven        Breakeven
                                                    Increase         Increase
                                      Base Case    Above CPI        Above CPI
                                      Breakeven     with 50%         with 50%
                          Initial      Increase    Decrease in      Increase in
                          Volume        Above         Price            Price
                         (billions)      CPI       Elasticities     Elasticities
                            150          24.3%        23.5%            28.0%
                            125          39.9         37.8             47.7
                            100          65.1         60.2             82.3
                            75          113.4         99.9            151.9



d.       Retail function cost
The Postal Service retail function represents 11 percent of total costs or $6.5 billion in 2009.
The U.S. Postal Service Office of Inspector General (OIG) recently published a paper on the
Postal Service’s retail function that finds that substantial savings could be obtained without



33
     Op. cit.



GEORGE MASON UNIVERSITY                                                             SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                      25

degrading service.34 Consequently, we examine the sensitivity of the base case results to savings
in the retail function. Table 11 shows that a 33 percent reduction in retail costs at 150 billion
pieces could reduce the required breakeven price increase by 4.5 percentage points. At 75 billion
pieces the breakeven price could be reduced by 12 percentage points. This raises the issue of
whether there is a need for much retail presence at the lower volume levels, since they represent
scenarios in which there would be very little single piece letter mail. We have seen that UPS and
FedEx can accommodate household parcels by using a combination of their own retail stores,
retail store agents and drop boxes. Moreover, the USPS has begun to use letter carriers to accept
Priority Mail parcels on their delivery rounds. Thus it would seem that very substantial savings
in the retail function could be obtained at the lower levels of volume that we have examined.
                                                Table 11
                                   Sensitivity of Base Case Result to
                                a 33 Percent Reduction in Retail Costs
                                                                 Breakeven
                                                 Base Case        Increase
                                                 Breakeven       Above CPI
                                    Initial       Increase       with 33%
                                    Volume         Above        Reduction in
                                   (billions)       CPI         Retail Costs
                                      150           24.3%            19.8%
                                      125           39.9             34.1
                                      100           65.5             57.5
                                      75           113.4           101.4



e.    Mail processing variability
There has been a long running technical disagreement between the Postal Service and the PRC
over the impact of volume changes on mail processing costs. Essentially the dispute boils down
to the degree of economies of scale that exist in the mail processing function. The Postal Service
has done analyses that show that mail processing costs grow about 8.3 percent when volume
increases 10 percent (a volume variability of 83 percent). The PRC claims that cost grows about
9.7 percent when volume increases 10 percent (a volume variability of 97 percent). In short, the
Postal Service finds that the mail processing function has about 13 percent fixed costs and the

34
 U.S. Postal Service Office of Inspector General, “Analyzing the Postal Service’s Retail Network Using an
Objective Modeling Approach,” Report No. RARC-WP-10-004, June 14, 2010.


GEORGE MASON UNIVERSITY                                                                    SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                         26

PRC finds that fixed costs are only about 3 percent. Interestingly, this disagreement is based on
econometric analyses using data obtained during periods when volume was increasing. It would
seem that their respective findings should be the same whether volume is increasing or declining.
The more costs are fixed, the less costs will drop when volume declines.

The Postal Service and the PRC have agreed to use a method for calculating the volume
variability percentage for mail processing that produces a result that hovers around 94 percent,
and this percentage is what the GMU Enhanced Cost Rollforward Model uses for the base case.
However, to test the sensitivity of the base case results we compare them to the results using the
Postal Service’s 83 percent figure. Table 12 below shows the breakeven price increases for the
83 percent variability case in comparison with the base case.

                                               Table 12
                                  Sensitivity of Base Case Result to
                              83 Percent Variability in Mail Processing
                                                                Breakeven
                                                                  Increase
                                               Base Case        Above CPI
                                Initial        Breakeven         with 83%
                                Volume          Increase       Mail Processing
                               (billions)      Above CPI        Variability
                                  150              24.3%            24.9%
                                  125              39.9             41.4
                                  100              65.5             68.6
                                   75             113.4            119.6


f.    Delivery frequency
A number of posts in the developed world deliver only five days a week. In this country
Congress controls the number of days a week that the Postal Service must deliver through an
appropriations rider that has been approved continually since 1983. Postal management has
proposed that the Postal Service be allowed to reduce delivery frequency by one day per week
and estimates that it would produce $3.1 billion in annual savings.35 So far, Congress has not
acquiesced. In this section we examine the sensitivity of the base case results to the estimated

35
  The GMU study on Universal Service cited above calculated that the savings from reduced delivery frequency
would be about two thirds of Postal Service management’s estimate.


GEORGE MASON UNIVERSITY                                                                   SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                             27

savings from reducing delivery frequency. Table 13 shows that the required breakeven price
increase is reduced considerably as compared to the base case. It is reduced by about 30 percent
at 150 billion pieces.

                                              Table 13
                                 Sensitivity of Base Case Result to
                                    Five Day a Week Delivery
                                                           Breakeven
                                                            Increase
                                              Base Case    Above CPI
                                 Initial      Breakeven    with 5 Day
                                 Volume        Increase      a Week
                                (billions)    Above CPI     Delivery
                                  150           24.3%         17.5%
                                  125           39.9          31.0
                                  100           65.5          53.3
                                   75          113.4          94.9



g.   Salaries
The base case assumes that the Postal Service’s average productive hourly wage is unchanged in
real (inflation-adjusted) terms. This comports with recent history, and given the financial
difficulties facing the Service, it is not an unreasonable assumption. The recent history is
presented in Table 14. The outsized increase in 2009 was due to oil prices skyrocketing in 2008
which caused the CPI to increase significantly through July. It just so happens that July is the
end of the period that determines the cost-of-living adjustment (COLA) that went into effect not
long after the beginning of FY 2009.

                                            Table 14
                         Postal Service Average Productive Hourly Wage
                         Year           Nominal Increase      Real Increase
                         2005                3.1%                -0.3%
                         2006                 3.8                    0.0
                         2007                 1.8                    -0.4
                         2008                 2.4                    -2.3
                         2009                 5.7                    6.6


GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                          28




Depending on the craft, salaries make up about 70 to 75 percent of the productive hourly wage.
Table 15 presents the sensitivity of the base case assumption to a cumulative change of plus
3 percent and minus 3 percent in employee salaries. At most of the volume levels, the effect is
less than 10 percent of the base case breakeven volume increase. Even with a 3 percent
cumulative increase, the 100 billion case is above our criterion by only a small margin.

                                              Table 15
                      Sensitivity of Base Case Result to Cumulative 3 Percent
                      Positive and Negative Changes in Postal Service Salaries
                                              +3%           Base Case          -3%
                            Initial        Breakeven        Breakeven       Breakeven
                            Volume          Increase         Increase        Increase
                           (billions)      Above CPI        Above CPI       Above CPI
                              150             27.3%            24.3%           21.3%
                              125             43.3             39.9            36.4
                              100             69.7             65.5            61.2
                               75           119.0            113.4            107.9


h.    Time period over which volume decline takes place
The base case assumes that the volume levels examined in this study would obtain in 2020. It is
probably unrealistic that volumes would drop so rapidly, especially for the 100 and 75 billion
piece volume levels. The nonvolume work load measures, especially carrier stops which grow
with household formations, must be estimated for a particular year as must retiree health care
costs. We have estimated the base case for the year 2030 to show the effect of time on the base
case results by projecting nonvolume workload costs and retiree health care cost to that year.
Table 16 presents the results. It can be seen that changing the time period has little effect on the
costs or breakeven rate increase.36 Thus, the model is virtually atemporal and independent of the
number of years that it would take to achieve the volume levels examined. However, the
annualized price increase would be reduced due to the longer forecast period.



36
 In part, this is due to the coincidence that the increase in nonvolume workload costs in 2030 was almost exactly
matched by a retiree health care cost decrease in 2030.



GEORGE MASON UNIVERSITY                                                                      SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                            29


                                                Table 16
                                   Sensitivity of Base Case Result to
                              Changing the Forecast Year from 2020 to 2030
                                                    Base Case
                                                       2020                            2030
                      Initial        Base Case      Breakeven         Costs in      Breakeven
                      Volume           Costs         Increase           2030         Increase
                     (billions)       ($ 2009)      Above CPI         ($ 2009)      Above CPI
                        150            $67.0             24.3%         $67.1             24.3%
                        125              60.0            39.9            60.0            39.9
                        100              53.1            65.5            53.1            65.5
                         75              46.7          113.4             46.7          113.5


i.    Retiree health care costs
As noted earlier, we assumed in the base case that the 2020 retiree health care costs would be
$7.3 billion in 2020 dollars as estimated in GAO Report GAO-10-455, April 2010.37 We
estimate this payment is a combination of the normal health care costs of about $4.3 billion and
an amortization amount of about $3 billion. Given the Postal Service’s current financial
condition, there is considerable uncertainty about possible legislative changes that would affect
future health care payments. We tested the sensitivity of our results to an alternative scenario, in
which we assumed that the Postal Service had no remaining health care liability in 2020. Thus
the Postal Service would only pay its projected normal health care costs of $4.3 billion.

We examine the sensitivity of the base case results to the lower retiree health care payment case
in Table 17 below. It can be seen that the assumed retiree health care reduction would keep the
required breakeven price increases at the 150, 125 and 100 billion volume levels below our
financial sustainability criterion.




37
  As described in the base case section, we convert the 2020 retiree health care costs to 2009 dollars using an
assumed 3.0 percent annual inflation rate.



GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                           30


                                            Table 17
                               Sensitivity of Base Case Result to
                     a $3 Billion Reduction in Retiree Health Care Costs
                                                         Breakeven
                                                          Increase
                                                         Above CPI
                                          Base Case       with $3 B
                              Initial     Breakeven      Decrease in
                              Volume       Increase     Retiree Health
                             (billions)   Above CPI      Care Costs
                               150           24.3%           19.8%
                               125           39.9            34.1
                               100           65.5            57.5
                                75         113.4            101.4


The OIG suggested additional cases related to prefunding retiree benefits. We examine these in
Appendix A.


j.      Volume mix
In addition to widespread concerns about total volume declines in the postal community, there
have also been major concerns that a disproportionate amount of the decline would take place in
First-Class Mail, which has a higher current profit per piece than any other major category of
mail.

To examine the sensitivity of our results to alternative volume mixes (especially with respect to
First-Class Mail), we compared the base case BCG mix results with two other volume mix cases.
The first is the base case with the FY 2009 CRA volume mix, scaled for the 150, 125, 100 and
75 billion piece total volumes. This case has considerably more First-Class Mail than the BCG
mix because of the BCG assumption that First Class would decline by about 4 percent annually
in the FY 2009-2020 period. As an example, for the 150 billion piece BCG mix case and the
corresponding FY 2009 CRA mix case, First-Class volumes would be 49 billion and 65 billion
pieces respectively. The second case is more extreme in that it assumes a 50 percent cut in First-
Class volume for the 150 to 75 billion subcases, with the BCG mix for the remaining mail




GEORGE MASON UNIVERSITY                                                         SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                                 31

classes scaled up by a constant factor to attain the desired total volume.38 In this second scenario,
First-Class volume would only be 24 billion pieces. Results for these cases are shown in
Table 18 below.

                                                     Table 18
                                        Sensitivity of Base Case Result to
                                           Changes in 2020 Mail Mix
                                                                FY 2009          50% Cut in
                                            BCG Mail           CRA Mail             BCG
                                               Mix                Mix            First-Class
                            Initial         Breakeven          Breakeven         Breakeven
                            Volume           Increase           Increase          Increase
                           (billions)       Above CPI          Above CPI         Above CPI
                              150              24.3%              22.4%              31.5%
                              125              39.9               38.6               47.6
                              100              65.5               65.0               74.4
                               75             113.4              113.9              124.6


It can be seen that using the FY 2009 CRA mail mix results in only minor changes in the 2020
breakeven price increases, even though First-Class volumes are 25 percent higher than in the
BCG (base case) mix. Furthermore, even in the extreme case of assuming a 50 percent cut in
First-Class Mail, breakeven percentages only increase by about 7 to 11 percentage points for all
volume levels. While these results may not seem to agree with intuition, the explanation is
straightforward. Higher First-Class volumes in a mix mean that the breakeven price increases
will be lower in all classes than otherwise. However, with little First-Class Mail in a mix,
breakeven prices in the other classes of mail will have to rise enough so that they too will be
high-profit products. The own price elasticities in the other classes, while generally higher than
those of First-Class Mail, are not so high that sufficient additional profit cannot be achieved by
raising their prices.




38
  This case is not intended to be realistic, but simply to investigate how sensitive the results are to the level of
First-Class volumes.



GEORGE MASON UNIVERSITY                                                                            SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                                32


12. Conclusions

Until now the Cost Rollforward Model has been used in rate cases to forecast costs based on
increasing volumes. The model is also a good vehicle for modeling the effects of declining
volumes on costs. It can be enhanced so that it forecasts breakeven price increases using own
price elasticities. Using the enhanced model we find that with substantial volume declines the
Postal Service will not be able to break even without raising prices above the rate of the CPI. If
volumes drop to the levels examined in this paper, the Postal Service will not only shrink, but
especially with declining First-Class single-piece volume, it will be transformed into a
distribution medium as opposed to being a two-way communications medium. This will have
important implications for all of its major functions including delivery, mail processing,
transportation and window service. Finally and most importantly, the Postal Service should
remain financially sustainable at least down to 100 billion pieces if it is allowed to raise prices
above the CPI to levels that prevail in other developed countries.




GEORGE MASON UNIVERSITY                                                           SEPTEMBER 2010
IMPLICATIONS OF DECLINING MAIL VOLUMES                                                        33



Biography of Authors

Robert H. Cohen

Mr. Cohen has spent more than 35 years involved in quantitative analyses of the U.S. and foreign
post offices. He served as the Director of the Office of Rates, Analysis and Planning at the
Postal Rate Commission from 1978 to 2005, and was the General Manager of the Mail
Classification Research Division at the U.S. Postal Service from 1974 to 1978. Prior to that, he
was the Program Director for Postal Studies at the Institute for Defense Analysis from 1966 to
1974. He has also been a coauthor (with Commission staff) of a number of papers involving
policy and quantitative analyses relevant to postal costs. Most recently he authored a study on
the value of the Postal Service mail monopoly and he coauthored a study of the cost of the
Universal Service Obligation with Mr. McBride for the Postal Regulatory Commission.
Mr. Cohen holds an M.A. in Philosophy and Logic from the City University of New York, and a
B.A. in Philosophy and Mathematics from the University of Michigan.


Charles C. McBride

Dr. McBride is currently an independent postal consultant. He has worked in developing and
implementing quantitative models of postal operations for more than 35 years. At the Postal
Rate Commission from 1980 to 1990, he coordinated the development of volume, cost and
revenue forecasting models for several major rate cases, and he implemented new analytical
procedures for modeling carrier street time, workers’ compensation costs and postal productivity.
At the Postal Service from 1990 to 2001, he led a Service-wide effort to reform the then one-
hundred-year-old mail classification schedule and served as main policy witness for the project
during hearings at the Postal Rate Commission. More recently as a consultant, he developed a
new Excel spreadsheet-based cost forecasting model for use by the PRC and the parties in major
rate cases. Dr. McBride holds Bachelors and Masters Degrees in Electrical Engineering and
Operations Research, respectively, from the Massachusetts Institute of Technology and a Ph.D.
in Mathematical Statistics from the George Washington University.




GEORGE MASON UNIVERSITY                                                       SEPTEMBER 2010
      Appendix A




OIG Sensitivity Analyses
APPENDIX A: OIG SENSITIVITY ANALYSES                                                                         A-2



A-1. Introduction

The OIG requested that we perform two additional sensitivity analyses to explore the effects of
OIG proposed reforms. The first case illustrates the result of adopting the OIG’s proposal to use
a more businesslike method of prefunding retiree benefits. The second case shows what would
be necessary to break even under the PAEA price cap.


A-2. Sensitivity Analyses


a.         Health Care and Pension Prefunding Reform
The OIG has argued that the Postal Service has been overcharged for its Civil Service
Retirement System (CSRS) pension payment by $75 billion. It suggests that this overpayment
should primarily be used to fund retiree health care benefits.1 A recent OIG audit also found the
Postal Service’s FERS pension fund is overfunded by $5.5 billion.2 The audit recommended that
the Postal Service pursue legislative action to reduce its pension contributions until this surplus is
eliminated.

In addition, the Postal Service faces a 100 percent target for funding its retiree and health
benefits. The OIG maintains that the target rates common in the private sector — 80 percent for
pensions and 30 percent for retiree health benefits — are more appropriate. It advocates that the
Postal Service should stop paying into its health and pension funds until these targets are
reached. Legislation would be required to implement this proposal. If the proposal were
adopted, the OIG estimates that the Postal Service would not have to make any retiree health or
FERS payments until after 2020.3

Stopping the 2020 retiree health payment would save the Postal Service $7.3 billion in 2020
dollars. The OIG estimates that ending the FERS payment would save roughly $4.3 billion in

1
 U.S. Postal Service Office of Inspector General, “The Postal Service’s Share of CSRS Pension Responsibility,”
Report No. RARC-WP-10-001, January 20, 2010.
2
 U.S. Postal Service Office of Inspector General, “Federal Employees Retirement System Overfunding,”
Report No. FT-MA-10-001, August 16, 2010.
3
    Currently, the Postal Service does not have to make any CSRS payments.



GEORGE MASON UNIVERSITY                                                                     SEPTEMBER 2010
APPENDIX A: OIG SENSITIVITY ANALYSES                                                            A-3

2020. In 2009 dollars, the total reduction is $8.2 billion from the base case. We examine the
sensitivity of the base case results to stopping these payments in Table A-1 below.

The necessary price increases are below our sustainability criterion in all cases. The breakeven
price increase at 150 billion pieces would be only 6.8 percent. This is an annual increase of only
0.6 percent above CPI.

                                           Table A-1
                              Sensitivity of Base Case Result to
                         OIG Retiree Health Care and Pension Proposal
                                                 Breakeven          Annual
                                                  Increase         Increase
                                 Base Case       Above CPI        Above CPI
                     Initial     Breakeven       Health and       Health and
                     Volume       Increase        Pension          Pension
                    (billions)   Above CPI        Proposal         Proposal
                       150          24.3%            6.8%              0.6%
                       125          39.9            17.3%              1.5%
                       100          65.5            34.3%              2.7%
                         75        113.4            66.2%              4.7%



b.      Breakeven case
The OIG also requested that we combine the retiree health care and pension proposal with the
OIG’s proposal for retail savings described in the body of the paper and TFP growth in order to
develop a breakeven option. The case assumes that the Postal Service will be able to increase
TFP by a cumulative 2.1 percent over 10 years. This is a modest increase equivalent to the
cumulative increase in TFP from 1990 to 1999. From 2000 to 2009, Postal Service TFP grew by
10.7 percent.

The results for this case appear in Table A-2 below. At 150 billion pieces, no increase above
CPI is necessary. Even at 100 billion pieces, the necessary price increase is only 23.4 percent
above inflation, which is equivalent to an annual increase above CPI of less than 2 percent per
year.




GEORGE MASON UNIVERSITY                                                        SEPTEMBER 2010
APPENDIX A: OIG SENSITIVITY ANALYSES                                                 A-4


                                          Table A-2
                             Sensitivity of Base Case Result to
                                      Breakeven Case
                                              Breakeven         Annual
                               Base Case       Increase        Increase
                 Initial       Breakeven      Above CPI       Above CPI
                 Volume         Increase      Breakeven       Breakeven
                (billions)     Above CPI       Proposal        Proposal
                  150            24.3%            0.0%            0.0%
                  125            39.9             8.9%            0.8%
                  100            65.5            23.4%            1.9%
                   75           113.4            50.4%            3.8%




GEORGE MASON UNIVERSITY                                                   SEPTEMBER 2010
                          Appendix B




      Description of GMU Enhanced Rollforward Model




GEORGE MASON UNIVERSITY                      SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                                        B-2



Contents


B-1.  Background and Purpose ....................................................................................................... 3 

B-2.  Overview of GMU Enhanced Rollforward Model ................................................................ 4 
      a.  Cost Rollforward Model ............................................................................................... 4 
      b.  Adjusting Volumes, Revenues, and Costs for Price Elasticity Effects ......................... 5 
      c.  GMU Model Workbook and Its Worksheets ................................................................ 7 
      d.  Description of Columns in User Interface Worksheet “Cases” .................................... 8 
      e.  Creating or Changing Model Case Inputs ..................................................................... 8 
      f.  Output Cost/Revenue Matrix Files ............................................................................. 10 
      g.  The FY 2009 Base Year File ...................................................................................... 11 
      h.  Running the Model ..................................................................................................... 11 

B-3.  Documentation of Sustainability Study Case Results .......................................................... 12 
      a.  Description of Base Case ............................................................................................ 12 
      b.  Description of Other Cases ......................................................................................... 17 
      c.  Example of Creating a New Case ............................................................................... 21 
      d.  Summary of Case Results for Sustainability Study .................................................... 23 




GEORGE MASON UNIVERSITY                                                                                     SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                          B-3



B-1. Background and Purpose

The GMU Enhanced Rollforward Model was developed for use in the OIG study of the Postal
Service’s future financial sustainability. It provides the means for calculating future costs,
revenues, and volumes for the various “what-if” scenarios described in the main paper. The
model relies heavily on the Cost Rollforward Model developed by the Postal Service in the late
1970’s. However, it extends the capability of the Cost Rollforward Model by adding the ability
to 1) calculate new prices for mail and special service categories that allow revenues to match
estimated costs for a future year; 2) estimate the effect of those price increases on volumes for
the future year; and 3) calculate new breakeven costs and revenues for that year based on the
new prices and volumes. Finally, a new user interface was developed to provide a convenient
means for running scenarios with different inputs and storing the summary results for a large
number of scenarios in the same workbook.


This appendix presents the results for all scenarios (cases) used in this study and the sources for
the input data. It also describes the GMU Enhanced Rollforward Model and how it was used to
estimate financial results for the scenarios described in the main paper. Finally, it provides
instructions for using the model to allow the OIG staff to investigate a wide variety of other
scenarios by adding new cases or changing the inputs for the current cases.


The GMU Model programs are written in the Excel-based Visual Basic for Applications (VBA)
programming language, which uses Excel workbooks and worksheets as model inputs and
outputs. It is designed for use by analysts who are familiar with Excel and at least somewhat
familiar with the standard public Postal Service reporting systems, such as the annual Cost
Segments and Components, CRA and RPW (Revenue, Pieces and Weight) Reports. Some
familiarity with a standard programming language such as Basic, Fortran, or C would be useful if
changes in the VBA code are desired, but knowledge of computer programming languages is not
required to use this model.


It should be noted that any forecast of the Postal Service’s financial condition 11 years in the
future is subject to many uncertainties, including future economic conditions, further


GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                        B-4

improvements in and increased usage of technological substitutes, and future legislative changes.
The value of this study lies in the results comparing future USPS financial results assuming a
variety of “what-if” future conditions.


This Appendix does not contain information that is considered confidential by the Postal Service.
However, the various Excel input and output workbooks used as inputs to or outputs from the
GMU Model, as well as the GMUModel.xls file itself, are considered confidential because they
contain product-specific figures for the Postal Service’s competitive products. These Excel
workbooks have been provided to the OIG in computer-based format only.



B-2.    Overview of GMU Enhanced Rollforward Model


a.     Cost Rollforward Model
The Cost Rollforward Model was originally developed by the Postal Service for use in its
testimony for PRC omnibus rate cases, starting in the R80-1 rate proceeding. This forecasting
model produces detailed forecasts by “Cost Segment” (18 broad categories of postal costs, such
as Postmasters and Rural Carriers) and more detailed “Cost Components” (about 170 cost sub-
categories such as “Postmasters EAS 23 and Below” and “Rural Carrier Equipment Maintenance
Allowance”). Several forecasting steps (called effects) are used to “roll forward” the cost
components from one fiscal year to the next. These effects include: cost level changes, mail
volume changes, nonvolume workload changes (such as delivery points or number of post
offices), cost reduction programs, and several categories of system-wide cost changes (such as
workers’ compensation and retiree health care costs).


The first version of the Postal Service Cost Rollforward Model was written for a mainframe
computer system in the Cobol programming language. This early version of the model was very
difficult for the PRC staff and the parties to understand, modify, and use. For the R80-1 rate
proceeding, one of the authors of this paper converted the USPS Cobol Cost Rollforward Model
to the more common Fortran computer language, which made it possible for the PRC staff and
others to replicate the Postal Service cost forecast and to make changes in the inputs for the



GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                      B-5

model based on results of the formal discovery process. In later years, the PRC version of the
model was again rewritten by one of the authors, first in the C programming language and then
in the Excel-based VBA language, both of which could be run on early IBM PCs. The PRC
Excel version of the model introduced in 2003 and first used in the R2005-1 rate case made it
possible to use simple spreadsheets for the inputs and outputs of the Cost Rollforward Model,
which made the mechanics of the forecasting process much more accessible. In 2005, the Postal
Service followed suit by converting its 30-year-old Cobol-based model to the Excel/VBA
language for use in the R2005-1 rate proceeding.


In spite of the many versions of the Cost Rollforward Model that have been created and used
over time, the basic algorithms for forecasting costs starting with a “base year” (with known
data) to a near-term future “test year” have remained virtually unchanged. Also, all versions of
the model produce identical results given the same input data. This is remarkable, since the
model has been subjected to intensive review and critiques by the PRC staff and the parties over
a long period of time. We believe this long history of successful use justifies using the Cost
Rollforward Model as the foundation of the GMU Forecasting Model. In this paper, we use the
PRC Excel/VBA version of the Cost Rollforward Model from the R2006-1 omnibus rate
proceeding.1

b.      Adjusting Volumes, Revenues, and Costs for Price Elasticity Effects
For this study, substantial volume declines are anticipated in the future. This means that real
costs would drop, but real revenues would drop even more, resulting in the need for substantial
price increases to achieve financial breakeven.2 The Cost Rollforward Model described above
calculates future costs resulting from a specified set of forecasted mail and special service
category volumes. However, we also need to calculate a set of future rates by category that
would allow the Postal Service to achieve financial “breakeven” in a given future year.




1
  A companion model has been used in rate cases called the “CRA Model.” This model updates the distribution of
longer run costs in the output cost matrix created by the Cost Rollforward Model. It was not necessary to use this
model in this study because the longer-run costs are considered volume variable over the 11-year forecast period.
2
 Revenues and volume-variable costs decline proportionally with volume, but fixed costs stay the same, causing
costs to exceed revenues.



GEORGE MASON UNIVERSITY                                                                       SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                          B-6

Determining breakeven prices requires several steps. First, the future real (FY 2009 dollars)
revenues that would result from the future volumes at current rates3 are calculated. The
percentage increase in prices4 required to produce revenues that equal forecasted costs is also
calculated at this point in the process. These steps result in what we call “initial” or “unadjusted”
volumes, revenues, costs, and the estimated price increases required to break even. In reality,
these initial price increases would not be sufficient to break even because of price elasticity
effects – that is, volumes would decrease further due to higher prices, which would cause a
further revenue shortfall.


To calculate the price elasticity effects, several new VBA modules and worksheets were added to
the GMU Forecasting Model along with those required by the Cost Rollforward Model. The
calculation procedure is an iterative process that starts with a set of own price elasticity values5
for each mail/special service category (product) provided by the Postal Service to the PRC6 each
year; in our case, for FY 2009.


Using the initial set of required price increases for each product and the corresponding price
elasticities, a starting volume estimate is calculated for each product. 7 Assuming unit volume
variable (attributable8) costs stay the same, new total attributable costs and revenues are
calculated, and the difference between them is the estimate of fixed costs for that stage of the


3
    The rates in effect during FY 2009 are used as current rates for this study.
4
  For this study, the same percentage price increase is assumed to apply to each mail and special service category.
This approximation seems reasonable given that the future time period of interest is at least 10 years from the
present time. For this study, the same percentage price increase is assumed to apply to each mail and special service
category. This approximation seems reasonable given that the future time period of interest is at least 10 years from
the present time. However, it is likely that price increases would vary by category over time.
5
 In past rate cases through R2006-1, a more complex volume forecasting process was used that involved product
price cross-elasticities. However, in the ongoing R2010-4 rate proceeding, the Postal Service has simplified its
volume forecasting process by not considering cross-elasticity effects between product prices. We feel this makes
our use of a simpler own price elasticity approach reasonable.
6
  The own price elasticities for market dominant products are from the January 20, 2010 submission to the PRC by
the Postal Service; the competitive product elasticities were furnished on a confidential basis to the OIG by the
Postal Service.
7
 It should be noted that the model does not calculate a volume forecast in the usual sense, where many input
variables other than price are used. Rather, it takes an existing volume forecast that is based on all the input
variables, and adjusts it only for price changes.
8
    Most attributable costs are considered volume variable.



GEORGE MASON UNIVERSITY                                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                B-7

process. If this estimate of fixed costs exceeds the initial value of fixed costs by more than a
predefined small amount (about 1 part in 200,000), a new (lower) percentage price increase for
the next stage is calculated using a calculus technique for determining solutions of nonlinear
equations called Newton’s Method.9 If the estimate of fixed costs is too low, a new (higher)
percentage price increase is used. This process continues until the required value of fixed costs
agrees with the estimated value within the given tolerance. Experience with this method has
shown that the process converges within the required tolerance in about 5 to 15 iterations.


There is one more factor to consider. Unit attributable costs will not actually stay constant as
volumes change, because not all attributable costs vary directly with volume. In addition,
changing one mail category volume and leaving the others constant results in changes in
attributable costs not only for the changed-volume category, but also for all other categories,
although by smaller amounts. Thus, the Cost Rollforward Model must be run again with the new
volumes and prices to calculate new unit costs. Given the new unit costs, the Newton’s method
technique is used to find new prices and volumes that converge to achieve the original value of
fixed costs. Then the Cost Rollforward Model is run yet again to start another iteration of the
process, then the Newton’s method approach is used, and so on, until breakeven revenues and
costs with the correct fixed costs are achieved within a specified error tolerance. Five iterations
of this process produce breakeven revenues and costs to an accuracy of about 1 part in 200,000.
This final set of product costs, revenues, and volumes are called “price-adjusted” or simply
“adjusted” values.

c.         GMU Model Workbook and Its Worksheets
The GMU Model consists of a single workbook (GMUModel.xls) with about 30 worksheets and
20 VBA program “modules” that read the inputs, calculate the outputs, and prepare detailed case
summaries in spreadsheet format. Table B-1 below provides a brief overview of the various
GMU Model worksheets and their purpose. Further details on each worksheet are provided in
the next section.




9
    See the Wikipedia reference for this method at http://en.wikipedia.org/wiki/Newton's_method.



GEORGE MASON UNIVERSITY                                                                       SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                 B-8

                         Table B-1. Descriptions of GMUModel.xls Worksheets
Worksheet Name              Worksheet Description                         Notes                   Sources

        Cases       Summary model inputs & outputs        See Tables 2 and 3 for details        User, Model
     Case0-Case20   Output data from GMU Sustainability   See Section 2 for details               Model
                    Study
      uspsdat09     Input data for Roll Forward Model     Start directory, names of mail       User, Provided
                                                          products & cost segments
      compinfo      Input data for Roll Forward Model     Model cost component numbers             User
       volume       Input file for GMU Model              Product volumes, prices &                User
                                                          elasticities
       sidecalcs    Side calculations for GMU Model       Miscellaneous calculations               User
      masterby09    Descriptions of USPS FY 09 cost       Contains subtotal columns not used     Provided
                    components                            in GMU Model


It should be noted that the 21 tabs in the GMUModel.xls workbook that are currently reserved
for case summaries can be changed as desired. The user can eliminate as many of these tabs as
desired if a given application does not require so many cases. In the current version, the Case 20
tab is left blank as a placeholder for another case. Also, more Case tabs can be added to the
workbook if desired. The best way to accomplish this is to select an existing Case worksheet tab,
and use the copy worksheet command to create another Case sheet. The name of the new tab
must be changed to fit the Case# format, with no repeated case numbers.

d.        Description of Columns in User Interface Worksheet “Cases”
A more convenient method for specifying scenarios for the GMU Model and storing the results
in an organized manner was also developed for this study. This required the creation of several
new VBA modules and a new “Cases” user interface worksheet, which were added to the GMU
Model workbook. An overview of the contents and sources (user-provided or calculated by the
model) for the various columns in the “Cases” worksheet is provided in Table B-2 below.

e.        Creating or Changing Model Case Inputs
Table B-2 shows that cases with new volumes, prices, and elasticities for each product can be
created on the “Cases” sheet simply by specifying particular columns in the “volumes”
worksheet. Other types of changes are accomplished through the use of a “factor file,” such as
the In14Y.xls factor file used to define the base case factors used in this paper. The contents of
the In14Y.xls file are shown in Table B-4 in the next section. For purposes of this study, the




GEORGE MASON UNIVERSITY                                                                    SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                             B-9

most important items in the factor files are the numerical values (shown in bold in Table B-4) in
the various rows.


                            Table B-2. Column Descriptions for "Cases" Sheet

     Column           Column Title                               Column Description                          Source

       A      (Subcase) Title                  Case Number & Subcase Letter (e.g., 10b)                      User
       B      (Subcase) Description            Brief Description of Subcase                                  User
       C      Factor File                      Name of Input Factor File for Subcase                         User
       D      Output File                      Name of Output File for Subcase                               User
       E      Initial Volume                   Unadjusted Total Volume                                       Model
       F      Initial Cost                     Calculation of Unadjusted Total Cost                          Model
       G      Initial Revenue                  Calculation of Unadjusted Total Revenue                       Model
       H      Initial Profit                   Calculation of Unadjusted Total Profit                        Model
       I      Initial Breakeven %              Calculation of Unadjusted Breakeven Price %                   Model
       J      Blank                            Empty Column                                                   NA
       K      Start File                       Name of FY 2009 Base Year File                                User
       L      Volume Column                    "volume" Sheet Column Number (e.g., 2102)                     User
       M      Revenue/Piece Column             "volume" Sheet Column Number (e.g., 2108)                     User
       N      Save                             "y" or "n" for Save Case to Summary File                      User
       O      Elasticity Column                "volume" Sheet Column Number (e.g., 2127)                     User
       P      Adjusted Volume                  Calculation of Adjusted Total Volume                          Model
       Q      Adjusted Cost                    Calculation of Adjusted Total Cost                            Model
       R      Adjusted Revenue                 Calculation of Adjusted Total Revenue                         Model
       S      Adjusted Profit                  Calculation of Adjusted Total Profit                          Model
       T      Adjusted Breakeven %             Calculation of Adjusted Breakeven Price %                     Model
       U      Adjusted Workyears               Calculation of Adjusted Workyears                             Model
       V      Adjusted Annual Breakeven %      Calculation of Adjusted Annualized Breakeven Price %          Model
       W      Date & Time                      Date & Time of Most Recent Model Run                          Model


Besides the volume, price, and elasticity column inputs, other calculations by the PRC version of
the Cost Rollforward Model (and the GMU Enhanced Rollforward Model) are specified by
factor files for each forecasting effect in each forecasting period, each of which contain a series
of “control string” commands.10 Each control string command calls a specific subroutine to
make a particular calculation on a specified set of input and output cost components. For


10
  In past PRC rate cases, factor files with over 300 rows were used to reflect a detailed near-term USPS forecast of
changes in each cost component and forecasting effect. This study uses a much longer forecasting time period and
focuses on major changes, so this level of detail was not appropriate. The major changes are reflected in the mail
volume effect in the factor files for each scenario. Changes for the nonvolume workload effect are also estimated.
All other “what-if” changes are reflected in the other programs effect. As a result, factor files for this study contain
about 50 rows.



GEORGE MASON UNIVERSITY                                                                           SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                         B-10

example, consider the following control string command that is part of the nonvolume workload
effect section of the forecast (see row 24 of Table B-4, In14Y.xls Factor File):
         cl       1        1:1         -0.009
The two-letter command code “cl” means that a cost level change is to be performed on one or
more cost components, in this case the component 1:1.11 The amount of the change for the
component is given by multiplying the current values for all mail products in the cost component
by the numerical constant –0.009. 12


For purposes of using the GMU Model, knowledge of the specifics of these control strings and
factor files is not necessary.13 For one reason, the factor files for other cases in this study are
very similar to In14Y.xls, but have at least one different numerical factor in the existing control
string lines, or a few different control string lines and factors. For another reason, 12 other factor
files are included with the study documentation for use in creating other cases, and each factor
file can serve as a template for making similar changes for new cases.

f.       Output Cost/Revenue Matrix Files
The output files produced by the GMU Model are similar in structure to the annual USPS Cost
Segments and Components Report and nearly identical to the PRC cost model matrix files. They
are “matrices” in the sense that the columns are cost components and the rows are product
categories. There are separate worksheets for each cost segment that include each cost
component in that segment and one summary worksheet for the total of all cost segments. The
summary sheet also contains columns showing unadjusted and adjusted rates, revenues, and
contribution, as well as adjusted total workyears. The rows of each worksheet are the 38
FY 2009 USPS product categories, plus rows for total attributable costs, total “Other” (fixed)
costs, and total costs. The last row for each cost component (in the GMU Model only) is the
percentage of total costs that are attributable. The cost components used in the GMU Model are

11
  The designation of a particular cost component is given by a cost segment number from 1-20, followed by a
colon, followed by a number from 1-2000, which is the Postal Service Cost component number. Thus, the
component “18:199” is USPS Cost Component 199, and is included in Cost Segment 18 costs.
12
  If a whole number rather than a decimal less than one is entered in the control string, the model interprets it as the
entire amount of the change.
13
  For those who are interested, more detailed information on the VBA language, factor files, and control strings can
be found in “Documentation of Excel Rollforward Cost Model” by Charles C. McBride, February, 2004. This
reference document was prepared for the Postal Rate Commission.


GEORGE MASON UNIVERSITY                                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                       B-11

the most detailed available from the USPS Cost Rollforward Model (as of R2006-1) and do not
include subtotals. A listing of all cost component titles and USPS identifiers is provided in the
“masterby09” worksheet contained in the GMUModel.xls workbook.

g.       The FY 2009 Base Year File
The FY 2009 base year file used in this study as the starting point for all forecasting cases is
called Out1P.xls, and is in the GMU/PRC matrix format discussed above. This matrix was
created by converting a 1600-row by 200-column USPS-format cost matrix filed earlier this year
in the R2010-4 rate case before the PRC.14 This conversion was accomplished by using a GMU
Model utility module (included in the GMUModel.xls workbook) called “ConvertUSPSMatrix.”

h.       Running the Model
The first step in preparing a new series of model runs is to create a new directory (or sub-
directory). Then copy the files GMUModel.xls, template.xls, Out1P.xls, and the various input
factor files provided with this documentation to this same directory. Next, open the
GMUModel.xls workbook, select the “uspsdat09” worksheet, and replace the directory
name in cell D1 with the new directory name.


Now select the “Cases” worksheet and create one or more new case rows by filling in the user
input columns shown in Table B-2 above.15 A convenient way to start this process is to copy an
existing case row (or set of rows) to another row (or rows) on the Cases worksheet, then change
any input columns that are different. (An example explaining in more detail how a new case is
created is shown in section B-3 below.) Note that each case row includes the name of an output
file.16 Then enter the desired starting and ending case rows for the run in cells B3 and B4,
respectively. Next, select Run Macros from the Excel command menu, then select and run the
macro “ProcessUCommands.” After a good deal of on-screen activity, the macro should finish
with the “Cases” sheet on screen and the various results columns filled in. Besides the

14
  This base year cost matrix was the “B” version of USPS cost model worksheets, and so it includes the longer-run
and short-run attributable costs.
15
  Note that most of the cases for this study require that five rows be entered at a time, each with a different volume
level from a different “volume” sheet column. It is not necessary to set up cases in this manner; for example, single
row-cases can be set up.
16
  To cut down the number of saved output files, the same output file name can be used for different subcases if
desired.


GEORGE MASON UNIVERSITY                                                                         SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                      B-12

information shown in the case row, more detailed information on the case run can be found in the
appropriate “Case#” worksheet, where “#” is between 0 and 19. The time required to run each
case row varies from 2-5 minutes, depending on the user’s PC processor speed.



B-3. Documentation of Sustainability Study Case Results

In this section, the study case results are presented along with documentation of the inputs for
each case. Input data include volume, price, or elasticity columns from the “volume” worksheet
and numerical values included in the rows of the various factor files. Sources for both types of
input data are presented below.

a.     Description of Base Case
As described in the main paper, the base case is used as the standard of comparison with other
“what-if” scenarios. It uses the base year (FY 2009) as the starting point and FY 2020 as the end
point. The basic volume forecast used is the BCG forecast announced by the Postal Service in
March 2010. It uses the prices in effect in the base year; we assume that there would be annual
CPI-based price increases between FY 2009 and FY 2020, so the real 2009 prices would be the
same as in 2009. The FY 2009 product own price elasticities developed by the Postal Service and
filed with the PRC earlier this year are used to calculate the effect of raising FY 2009 prices to
achieve financial breakeven in FY 2020. Five different volume levels (subcases) are used for the
base case as well as the other “what-if” cases: 177.5, 150, 125, 100, and 75 billion pieces. The
177.5 billion-piece scenario assumes the FY 2020 volumes would be the same in FY 2009. This
scenario is considered too optimistic and is not discussed in the main paper; it is used primarily
for model “debugging” purposes.


For reference purposes, the column names and sources of data for the “volume” worksheet are
shown in Table B-3 below. Note that several of the columns in the “volume” worksheet were
left blank for future use. The base-case input volume columns are found in the columns labeled
2116-2120. The price column is 2108 and the elasticity column is 2127. All three columns are
used as part of the specification of the base case inputs on rows the “Cases” worksheet of
GMUModel.xls.



GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                      B-13



The base case also assumes that there would be increases in the following nonvolume workload
measures from 2009-2020: city delivery points (0.43%), rural delivery points (7.22%), contract
stations (-2.96%), and post offices (-0.90%). A separate factor (3.61%) is also included for the
Rural Carrier Equipment Maintenance Allowance component. These projections are based on
extending the FY 2006-09 growth trends to 2020, and are documented at cells A46:M50 of the
“volume” worksheet. Retiree health costs in 2020 assuming continuation of the current law
($4.62 billion in FY 2009 dollars17) are also included in the base case, and are documented at
cells A60:O65 of the “volume” worksheet.


These input values are included in the base case by using a “factor file” as discussed above. For
illustration, the complete factor file (In14Y.xls) for the base case is shown in Table B-4 below.
This table “wraps” the longer rows in the spreadsheet for easier viewing. The actual row
numbers in the In14Y.xls worksheet are shown in the first column of Table B-4. The numerical
factors discussed above are highlighted in bold in the table.


The third column in the factor file contains the two-letter control strings discussed in section B-1.
For example, the “ef” control string shown on row 1 of the factor file specifies the beginning of a
new forecasting “effect” and the second column on that row contains the name of the effect. The
“mv” and “mz” control strings adjust the cost components listed on the row for the volume
change effect. The “rc” control string specifies how the indirect cost components are to be
changed based on changes in the direct cost components. In the Cost Rollforward Model,
indirect costs are normally calculated for the mail volume and nonvolume workload effects. The
“cl” string is used to specify a multiplier for all products (and fixed costs) in a cost component
column. The “nv” string is used to specify a multiplier for fixed costs of a cost component only.




17
     This is the deflated value of $7.3 billion in 2020 dollars.



GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                     B-14


                  Table B-3. Column Descriptions for "volume" Worksheet
    Excel    Model
   Column   Column #          Column Title                           Source

     A         -       PRC Product Number       PRC
     B         -       Product Name             USPS
     C         -       USPS Product Number      USPS
     D       2101      FY 08 Volumes            FY 08 RPW - 203B pcs
     E       2102      FY 09 Volumes            FY 09 RPW - 177.5B pcs
     F       2103      FY20 Prop150             FY 09 Volumes scaled to 150B pcs
     G       2104      Blank                    NA
     H       2105      FY20 Prop125             FY 09 Volumes scaled to 125B pieces
     I       2106      FY20 Prop100             FY 09 Volumes scaled to 100B pieces
     J       2107      FY20 Prop75              FY 09 Volumes scaled to 150B pieces
     K       2108      FY09 Rev/Pc ($/Pc)       FY 09 RPW
     L       2109      FY09 Rev                 FY 09 RPW
     M       2110      FY08 Rev                 FY 08 RPW
     N       2111      FY08 Rev/Pc              FY 08 RPW
    O-R     2112-15    Blank                    NA
     S       2116      FY20 BCG150              FY 20 150B Piece Volume from BCG Briefing
     T       2117      FY20 BCG177              FY 20 BCG Volumes scaled to 177.5B pcs
     U       2118      FY20 BCG125              FY 20 BCG Volumes scaled to 125B pcs
     V       2119      FY20 BCG100              FY 20 BCG Volumes scaled to 100B pcs
     W       2120      FY20 BCG75               FY 20 BCG Volumes scaled to 75B pcs
     X       2121      FY09 Rev/Pc (cents/pc)   FY 09 RPW
   Y-AC     2122-26    Blank                    NA
    AD       2127      FY09 Elasticities        USPS Demand Analysis Report filed 1/20/10 at PRC
   AE-AJ    2128-32    Blank                    NA
    AJ       2133      mod BCG 177              FY 20 Detailed Volumes scaled to 177.5B pcs
    AK       2134      mod BCG 150              FY 20 Detailed version of FY20 150B BCG mix
    AL       2135      mod BCG 125              FY 20 Detailed BCG Volumes scaled to 125B pcs
    AM       2136      mod BCG 100              FY 20 Detailed BCG Volumes scaled to 100B pcs
    AN       2137      mod BCG 75               FY 20 Detailed BCG Volumes scaled to 75B pcs
    AO       2138      Elas 1.25                FY 09 Elasticities scaled by 1.25
    AP       2139      Elas 1.50                FY 09 Elasticities scaled by 1.50
    AQ       2140      Elas 1.75                FY 09 Elasticities scaled by 1.75
    AR       2141      Elas 2.00                FY 09 Elasticities scaled by 2.00
   AS-AU    2142-44    Blank                    NA
    AV       2145      Elas 0.50                FY 09 Elasticities scaled by 0.50
    AW       2146      Blank                    NA
    AX       2147      Model RP                 Temp FY 20 Price-Adjusted Rev/Pc
    AY       2148      Model Vol                Temp FY 20 Price-Adjusted Volume
    AZ       2149      Mod BCG150               FY 20 !50B BCG mix, 50% cut in FC
    BA       2150      Mod BCG177               FY 20 BCG mix, 50% cut in FC, scaled to 177.5B
    BB       2151      Mod BCG125               FY 20 BCG mix, 50% cut in FC, scaled to 125B
    BC       2152      Mod BCG100               FY 20 BCG mix, 50% cut in FC, scaled to 100B
    BD       2153      Mod BCG75                FY 20 BCG mix, 50% cut in FC, scaled to 75B




GEORGE MASON UNIVERSITY                                                         SEPTEMBER 2010
        APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                            B-15

                                   Table B-4. Listing of Base Year Factor File In14Y.xls
Row#
  1 **mail volume change**    ef        MV        n
  2                          mv          28     1:1     2:677     3:35     3:40     3:66    3:421     3:41     4:42     6:43
                                       7:46    8:57     10:69    10:70    11:75   12:543   12:549   14:142   14:681   14:143
                                     14:144 14:145     14:146   16:180   16:181   16:248   16:184   20:239   20:240
  3   PESSA components       mv          21 2:427      2:428     3:429    11:74    11:79    11:81   14:681   15:165   15:166
                                     15:167 16:176     18:194   18:440   18:439   18:436   18:286   20:230   20:232   20:236
                                     20:237 20:587      18:71
 4                           mz           1 18:208
 5                            rc          2     2:4      2:31        1     3:35
 6                            rc          1     2:7         1     3:40
 7                            rc          7    2:14      7:50    12:83    12:92   12:101   13:128   13:137       1      7:46
 8                            rc          7    2:18      7:53    12:86    12:95   12:104   13:131   13:140       1      7:54
 9                            rc          4  2:675     12:545   12:550   12:568        1     8:57
 10                           rc          1    6:44         1     6:43
 11                           rc          2  2:676      3:423        2     3:35    3:227
 12                           rc          3  2:674     12:548   12:556        2    10:69    10:70
 13                           rc          1  6:604          3     6:43     7:46     7:54
 14                           rc          4    2:13    12:100   13:127   13:136        3     6:43     6:44    6:604
 15                           rc          1    2:17         2     7:50     7:53
 16                           rc          1    2:32         7     3:40     6:43     6:44     7:46     7:50     7:53     7:54
 17                           rc          1  3:470          7     3:35    3:227     3:40     3:41    3:421    3:423     3:66
 18                           rc          1  2:678         15     3:35     3:40     3:66    3:421    3:423    3:470     3:41
                                      3:227    6:43      6:44    6:604     7:54     7:46     7:50     7:53
 19                           rc          1  2:601         14      2:4    2:677      2:7     2:13     2:14     2:17     2:18
                                      2:674  2:675       2:31     2:32    2:676    2:678     2:33
 20                           rc          2    2:30     3:422       40      2:4      2:7    2:677     2:13     2:14     2:17
                                       2:18  2:674      2:675     2:31     2:32    2:676    2:678     2:33     3:35     3:40
                                       3:66  3:421      3:423    3:470     3:41    3:227     4:42     6:43    6:604     7:46
                                       7:50    7:53      7:54     8:57    10:69    10:70     6:44    11:75    12:83    12:86
                                     12:543 12:545     12:548    12:89
 21                           rc          4     2:9      2:29    3:228   16:177       48      1:1      1:2      2:4    2:677
                                        2:7    2:13      2:14     2:17     2:18    2:674    2:675     2:30     2:31    2:601
                                      2:676  2:678       2:33     3:35     3:40     3:66    3:421    3:422    3:423    3:470
                                       3:41  3:227       4:42     6:43     6:44    6:604     7:46     7:50     7:53     7:54
                                       8:57  10:69      10:70    11:74    11:75    11:79    12:83    12:86   12:543   12:545
                                     12:548  12:89     18:194     2:32
 22                           rc          4 18:199     18:200   18:204    18:64       59      1:1      1:2      2:4    2:677
                                        2:7    2:13      2:14     2:17     2:18    2:674    2:675     2:30     2:31    2:601
                                      2:676  2:678       2:33     3:35     3:40     3:66    3:421    3:422    3:423    3:470
                                       3:41  3:227       4:42     6:43     6:44    6:604     7:46     7:50     7:53     7:54
                                       8:57  10:69      10:70    11:74    11:75    11:79    12:83    12:86   12:543   12:545
                                     12:548  12:89     18:194     2:32      2:9     2:29    3:228   13:110   13:114   16:173
                                     18:191 18:192     18:193   18:195   19:219
 23 **nonvolume workload**   ef         NV        n
 24                           cl          1     1:1   -0.0090
 25                          nv           2    7:54      7:46   0.0043
 26                          nv           2  10:69      10:70   0.0722
 27                          nv           1  10:73     0.0361
 28                          nv           3  11:74      11:81    11:79       0
 29                          nv           1 13:111    -0.0296




        GEORGE MASON UNIVERSITY                                                                SEPTEMBER 2010
        APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                        B-16


                         Table B-4 (continued). Listing of Base Year Factor File In14Y.xls
Row#
 30                         nv         1   13:112       0
 31                         nv         1   15:165       0
 32                          cl        1   15:234       0
 33                         nv         4   15:166  15:167   16:176   18:194       0
 34                         rc         2      2:4    2:31        1     3:35
 35                         rc         1      2:7       1     3:40
 36                         rc         7     2:14    7:50    12:83    12:92   12:101   13:128   13:137       1      7:46
 37                         rc         7     2:18    7:53    12:86    12:95   12:104   13:131   13:140       1      7:54
 38                         rc         4    2:675  12:545   12:550   12:568        1     8:57
 39                         rc         1     6:44       1     6:43
 40                         rc         2    2:676   3:423        2     3:35    3:227
 41                         rc         3    2:674  12:548   12:556        2    10:69    10:70
 42                         rc         1    6:604       3     6:43     7:46     7:54
 43                         rc         4     2:13  12:100   13:127   13:136        3     6:43     6:44    6:604
 44                         rc         1     2:17       2     7:50     7:53
 45                         rc         1     2:32       7     3:40     6:43     6:44     7:46     7:50     7:53     7:54
 46                         rc         1    3:470       7     3:35    3:227     3:40     3:41    3:421    3:423     3:66
 47                         rc         1    2:678      15     3:35     3:40     3:66    3:421    3:423    3:470     3:41
                                   3:227     6:43    6:44    6:604     7:54     7:46     7:50     7:53
 48                          rc        1    2:601      14      2:4    2:677      2:7     2:13     2:14     2:17     2:18
                                   2:674    2:675    2:31     2:32    2:676    2:678     2:33
 49                          rc        2     2:30   3:422       40      2:4      2:7    2:677     2:13     2:14     2:17
                                    2:18    2:674   2:675     2:31     2:32    2:676    2:678     2:33     3:35     3:40
                                    3:66    3:421   3:423    3:470     3:41    3:227     4:42     6:43    6:604     7:46
                                    7:50     7:53    7:54     8:57    10:69    10:70     6:44    11:75    12:83    12:86
                                  12:543   12:545  12:548    12:89
 50                          rc        4      2:9    2:29    3:228   16:177       48      1:1      1:2      2:4    2:677
                                     2:7     2:13    2:14     2:17     2:18    2:674    2:675     2:30     2:31    2:601
                                   2:676    2:678    2:33     3:35     3:40     3:66    3:421    3:422    3:423    3:470
                                    3:41    3:227    4:42     6:43     6:44    6:604     7:46     7:50     7:53     7:54
                                    8:57    10:69   10:70    11:74    11:75    11:79    12:83    12:86   12:543   12:545
                                  12:548    12:89  18:194     2:32
 51                          rc        4   18:199  18:200   18:204    18:64       59      1:1      1:2      2:4    2:677
                                     2:7     2:13    2:14     2:17     2:18    2:674    2:675     2:30     2:31    2:601
                                   2:676    2:678    2:33     3:35     3:40     3:66    3:421    3:422    3:423    3:470
                                    3:41    3:227    4:42     6:43     6:44    6:604     7:46     7:50     7:53     7:54
                                    8:57    10:69   10:70    11:74    11:75    11:79    12:83    12:86   12:543   12:545
                                  12:548    12:89  18:194     2:32      2:9     2:29    3:228   13:110   13:114   16:173
                                  18:191   18:192  18:193   18:195   19:219
 52 **other programs**      ef       OP         n
 53                          cl        1   18:208 1883675
 54 ** end **               **




        GEORGE MASON UNIVERSITY                                                            SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                        B-17

The changes in the base-case nonvolume workload factors are shown in row 24-27 and 29. The
cost component identifiers are listed in the format segment#:component#; for example, the cost
component “1:1” is cost component number 1 in cost segment 1. The name of each cost
component can be found in the “masterby09” worksheet of GMUModel.xls; for example,
component number 1 is “Postmasters EAS 23 & below.” Row 24 specifies the nonvolume
multiplier due to the change in the number of post offices for Postmasters EAS 23 & below.
Row 25 specifies the multiplier for city delivery carriers (components 7:54 and 7:56) due to
changes in city delivery points, while row 26 is used for the change in rural carrier delivery
points (components 10:69 and 10:70). Similarly, row 27 is used for the nonvolume workload
change for “Rural Carrier Equipment Maintenance Allowance” (component 10:73) and row 29
accomplishes the same function for “Contract Stations” (component 13:111).


The change in the base-case retiree health benefits cost component (18:208) is shown on row 53
of the In14Y.xls worksheet. Note that this change is $1.88 billion FY 2009 dollars while the
total value for this component was listed above at $4.62 billion. This happens because the
$1.88 billion is the change amount from the FY 2009 value. When added to the FY 2009 amount
for this component, the total should be $4.62 billion.


Note that there are rows in the In14Y.xls factor file that have “0” as the factor, which has no
effect on the rollforward forecast. These rows are included simply as placeholders in the event
that other cost components are added for a particular cost forecasting effect.


An additional factor file, In14V.xls, is used in the iterative recalculation of volumes, costs, and
revenues for all cases in this paper. This file contains the control string commands necessary to
update the cost calculations for the new volumes calculated at each stage of the iteration process.
It also contains several more control string commands that calculate USPS employee workyears
based on the revised costs.

b.      Description of Other Cases
     Case 0: FY 2009. This case calculates the unadjusted and adjusted breakeven price increases
for FY 2009, which had a deficit of $3.80 billion. The FY 2009 volume, price, and elasticity
columns in the “volume” worksheet are 2102, 2108, and 2127 respectively. The In00.xls factor


GEORGE MASON UNIVERSITY                                                           SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                  B-18

file rows 2-18 use the “xf” control string to convert the adjusted USPS labor costs in each labor
cost segment to workyears, then uses the “xt” control string in row 19 to calculate the adjusted
total workyears for FY 2009. The “xf” control string multiplies a given number of input cost
components by a given factor, then sums them and stores the results in the output component.
The “xt” control string adds the total rows for a specified set of input cost components and stores
the result in the output cost component.
     Cases 2-3: 2020 TFP Changes. These two cases calculate the unadjusted and adjusted
breakeven costs and prices assuming, respectively, a cumulative 3 percent decrease and a
3 percent increase in total factor productivity (TFP) over the 11- year forecast period. Both cases
use the same volume, price, and elasticity columns as the base case (2116-20, 2108, and 2127).
Case 2 uses the factor file In15N1.xls and case 3 uses the factor file In15N2.xls. Both factor files
are the same as the base-case factor file In14y.xls except for the addition of an additional row
(Row 53). For Case 2, Row 53 specifies that TFP is decreased by 3 percent, and so all cost
components (in all segments) are increased by a factor of 3 percent. Conversely, Case 3 assumes
an increase in TFP of 3 percent, so all cost components are decreased by 3 percent. Both
changes are accomplished by using the “ca” control string, which multiplies all cost components
in segments 1-20 by the same constant.
        Case 4: Later Year for BCG Volume Declines. This case is included to examine an
alternative scenario in which the base-case product volume declines are delayed from 2020 to
2030. The nonvolume workload and retiree health care costs are extrapolated to 2030, but the
2030 product volumes would be the same as predicted for 2020.18 This case, like many others,
uses the base-case volume, price, and elasticity data. The 2030 nonvolume workload changes
are shown at lines 24-29 of the input factor file In10.xls, and the 2030 retiree health care cost
changes as of 2030 are shown at line 49 of the same file.
        Cases 5-7: Alternative Volume Mixes. These three cases are designed to show the effect
of changing the product-level volume mix with the same subcase total volumes. All three cases
use the same base-case factor file In14Y.xls and the same elasticity column, 2127. They differ
only in the volume columns. Case 5 uses the base-case BCG mix except that all First-Class

18
  The retiree health care calculations are documented at cells c95:y100 of the “volume” worksheet. The source for
the retiree health care information is GAO Report GAO-10-455, April 2010. The calculations for the 2030
nonvolume workload-related costs are shown at cells a46:m50 of the “volume” worksheet. These extrapolations use
the nonvolume-workload data reported in the FY 2009 Annual Report of the Postal Service.



GEORGE MASON UNIVERSITY                                                                    SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                   B-19

product volumes are reduced by 50 percent, and the other products are scaled up to reach the
correct total volume. The Case 5 “volume” worksheet columns are 2150, 2149, 2151, 2152, and
2153 for the five total volume subcases (177.5, 150, 125, 100, and 75 billion pieces). Case 6
uses a more detailed product-level version of the BCG mix, and uses the “volume” worksheet
columns 2133-2136. Finally, Case 6 assumes that the product mix in 2020 is the same as in
2009. It uses the “volume” columns 2102-3 and 2105-07.
        Cases 8-9: Alternative Mail Processing Variability Levels. The subject of the proper
variability for mail processing has been an ongoing controversy between the PRC and the Postal
Service up through the R2006-1 rate case. The base case in this study uses a value of about
94 percent, which is close to the value that the PRC has favored. To see how changes in this
factor affect the overall results, Case 8 assumes a 100 percent variability level, and Case 9
assumes an 83 percent value, which is close to the historical Postal Service position. Both cases
use the base-case set of subcase volumes, prices and elasticities. The different variability levels
are found at line 2 of the two input factor files for these cases, In16N1.xls and In16N2.xls. In
each case, the product costs and fixed costs of the mail processing cost component (3:35) are
scaled to achieve a particular value by using the “vf” control string.
        Cases 10 and 11: Alternative Own Price Elasticities. These cases are used to explore the
effect of lower and higher own price elasticity values on the results. One would expect a higher
elasticity value to result in a lower volume with the same price increase, and vice versa. Thus
higher price elasticities would be expected to result in higher breakeven prices. Both cases use
the base-case initial volumes and prices, and the base-case factor file In14Y.xls. Case 10 uses
the base-case product elasticities multiplied by 50 percent (“volume” column 2145), and
Case 11 uses a multiplier of 150 percent (“volume” column 2139).
        Case 12: OIG Retail Cost Reduction. This case was based on an earlier OIG-sponsored
study19 of the savings that could be achieved by optimizing the locations of retail facilities
(including small post offices). The study roughly suggests a one-third reduction in retail units. It
is estimated that the “piggybacked” total cost of small offices and window service in larger
offices is about $6.5 billion, and a rough estimate of savings from applying the study to reduce
these costs results in a savings of about $2.1 billion. Case 12 uses the base-case volume

19
 U.S. Postal Service Office of Inspector General, “Analyzing the Postal Service’s Retail Network Using an
Objective Modeling Approach,” Report No. RARC-WP-10-004, June 14, 2010.



GEORGE MASON UNIVERSITY                                                                    SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                         B-20

columns, prices, and elasticities. It uses the factor file In12a.xls, which is the same as the base-
case file In14Y.xls, except for the “cl” control string at line 54. The reduction factor is the
estimated piggybacked retail cost savings from the small-office postmasters and window service
cost components.
       Case 13: OIG FERS and Retiree Health Care #2. This case uses the combination of two
large retiree cost reductions that would require legislative changes to make the reductions
possible. For this case, it is assumed that the Postal Service would be allowed to recover its
overpayments to the CSRS fund as well as to reduce the amount the Postal Service must pay
toward its FERS employees’ pension each year. The OIG has calculated that these additional
funds would allow the Postal Service to eliminate its 2020 FERS payment to OPM and also to
eliminate its 2020 retiree health care payment. The OIG estimates the FERS cost would be
roughly $4.3 billion in 2020. In 2009 dollars, this is about $3.0 billion, and is shown in the “cl”
control string at line 53 of the In22.xls factor file. The 2020 retire health reduction would be
$7.3 billion in 2020 dollars. Compared to the base case, the reduction is $5.2 billion in 2009
dollars. Compared with the actual 2009 payment, the reduction is $3.4 billion. It is shown at
line 54 of the In22.xls factor file. This retiree health care option is called OIG #2, because
Case 17 is used to investigate another retiree health care scenario (#1) using a different
assumption.
       Cases 14-15: USPS Employee Salary Changes. These two cases were included to
investigate the effects of a positive (Case 14) and negative (Case 15) 3 percent change in postal
salary levels over the FY 2009-2020 period. Both cases use the base-case volume, price, and
elasticity data. The salary change factors are found at lines 2-5 of the two input factor files for
these cases, In17a.xls and In17b.xls. Each of these four lines uses a “cl” control string for a
subset of the USPS employee cost components, with a change factor of 0.03 for Case 14 and a
change factor of –0.03 for Case 15.
       Case 16: 10 percent Reduction in Fixed Costs. In this case, it is assumed that all fixed
costs can be cut by 10 percent by 2020. This case uses the base-case volume, price, and
elasticity data. The fixed cost change factor is located at line 57 of the input factor file In18.xls.
The “na” control string is used to reduce the fixed costs in all cost components in all cost
segments.




GEORGE MASON UNIVERSITY                                                            SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                                   B-21

        Case 17: OIG Retiree Health Care Costs #1. In the base-case scenario, we assumed that
the retiree health care costs would include both the normal health care cost and an amortization
amount. In this alternative case (designated #1 because Cases 13 and 19 use a different method
to estimate retiree health cost reduction), we assumed that the Postal Service had no remaining
health care liability in 2020 and would not have to make an amortization payment. In 2009
dollars, this would mean that the 2020 retiree health care costs would be reduced by almost $2
billion, which is about $290 million less than the FY 2009 amount.20 This case uses the base-case
volume, price, and elasticity data. The retiree health care cost change amount is located at line
53 of the input factor file In19.xls. The “cl” control string is used to reduce the retiree health care
costs (component 18:208) by the required amount.
        Case 18: Reduction of Delivery Frequency to Five Days. Earlier this year, the Postal
Service filed a case with the PRC in which it estimates that about $3.1 billion (annually) could be
saved if the delivery frequency for most delivery points was cut from six days per week to five.
Most of this reduction will occur in the fixed costs of delivery. This alternative case is used to
estimate the effect of that change on 2020 breakeven price increases. This case uses the base-
case volume, price, and elasticity data. The delivery cost change command is located at line 55
of the input factor file In11.xls. The “cl” control string is used to reduce the total fixed delivery
costs for the city and rural carrier components by the required amount.
        Case 19: Breakeven OIG Case. This case combines two previous OIG cases, which
include savings from retail costs, FERS cost payments, and retiree health care (#2) costs, and
adds a 2.1 percent annual improvement in TFP. This case uses the base-case volume, price, and
elasticity data and the factor file In21.xls. Cost reductions from the four sources are shown at
lines 52-55 of factor file In21.xls.

c.      Example of Creating a New Case
In this section, we will describe in more detail how a new case or set of cases is most easily
created. We will build a sample case that involves cutting the Domestic Air and Domestic
Alaska Air cost components by $500 million. Let’s assume that this will be called Case 20.



20
   These calculations are documented at cells c95:y100 of the “volume” worksheet. The source for this information
is GAO Report GAO-10-455, April 2010. In 2020 dollars, we assume the normal cost payment is $4.3 billion and
the amortization payment is $3.0 billion.



GEORGE MASON UNIVERSITY                                                                     SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                       B-22

First, copy all five rows of the base case to a different set of rows on the worksheet or to replace
an existing set of rows. For the new case rows, change the case designators and the output file
names to reflect the new case number (20). If the new rows are replacing existing ones, this step
is not necessary. Now select the desired “volume” worksheet column numbers for the new initial
product volumes, prices, and elasticities and enter these numbers in the appropriate columns of
the new case rows. For this case, we will assume that the same base-case product volumes,
prices, and elasticities are used, so this step will not be necessary.


Now a decision must be made about whether a new factor file is needed for the new case or an
existing one can be used instead. A new factor file will not be necessary if the new case simply
uses different initial product volumes, prices, or elasticities, and does not specify other changes
from the base case or another existing case. However, for this sample case, we want to make
numerical changes to two specific cost components, so these must be entered via a new factor
file.


The easiest way to create a new factor file is to copy an existing factor file (perhaps the base-case
In14Y.xls factor file) to another workbook with a different name than any of the other factor
files. Let’s say the new workbook is called In09.xls, which at this point is identical to the
In14Y.xls file. Usually, these numerical changes involve use of the “cl” control string, and many
examples of its use have been discussed in the previous section. Now the user must determine
which specific cost components need to be changed. The USPS list of cost component names
and numbers can be found on the “masterby09” sheet in the GMUModel.xls workbook, and from
that sheet, we see that the desired USPS column numbers are 142 and 681 in cost segment 14.
Since many of the “masterby09” components are subtotals rather than the low-level cost
segments we need, we must now check column A and B of the “compinfo” worksheet to see if
these two numbers are on the GMU Model cost component list. They are, so we can construct
the following “cl” control string command to implement this change:
        cl      2       14:142          14:681          -500000
This control string should be placed on a new row inserted immediately after row 53, and then
the new In09.xls factor file should be saved and closed.




GEORGE MASON UNIVERSITY                                                          SEPTEMBER 2010
APPENDIX B: DESCRIPTION OF GMU ENHANCED ROLLFORWARD MODEL                                   B-23

At this point, we only need to insert the name of the new factor file on each of the new Case 20
rows, and then run the model as described in Section B-2d above. New Start and End rows for
the new case rows should first be entered at cells B3 and B4 of the “Cases” worksheet.

d.     Summary of Case Results for Sustainability Study
Tables B-5a to B-5f below show the contents of the “Cases” summary worksheet for this
sustainability study. These tables include user inputs and GMU Model outputs for the 20 cases
used in the study. The format for this worksheet is presented in Table B-2 above. The input data
and sources for each case are described above in subsections a and b.




GEORGE MASON UNIVERSITY                                                        SEPTEMBER 2010
                                                                                                                                                                                    B-24
                                                             Table B-5a. GMU Sustainability Study Case Results
    A                       B                       C            D             E           F            G             H             I           K          L        M       N      O
Start Row                  40
End Row                    41
                                                  Factor      Output         Initial     Initial      Initial       Initial     Init BrkEv     Start     Volume   Rev/Pc          Elas
  Case #               Description                 File      File (adj)     Volume        Cost       Revenue        Profit      Rev/Pc %       File       Col      Col     Save   Col

   0a       FY09 CRA                             In00.xls    Out0a.xls 177,518,739 71,910,570 68,112,742           -3,797,828     5.6%       Out1P.xls   2102     2108      y     2127

   1a       Base case, 177.5B BCG mix           In14Y.xls    Out1a.xls    177,518,739   77,775,716   69,934,526    -7,841,190    11.2%       Out1P.xls   2117     2108      y     2127
   1b       Base case: 150B BCG mix             In14Y.xls    Out1b.xls    150,000,000   70,962,465   59,200,339   -11,762,126    19.9%       Out1P.xls   2116     2108            2127
   1c       Base case: 125B BCG mix             In14Y.xls    Out1c.xls    125,000,000   64,716,724   49,333,616   -15,383,108    31.2%       Out1P.xls   2118     2108            2127
   1d       Base case: 100B BCG mix             In14Y.xls    Out1d.xls    100,000,000   58,470,983   39,466,893   -19,004,090    48.2%       Out1P.xls   2119     2108            2127
   1e       Base case: 75B BCG mix              In14Y.xls    Out1e.xls     75,000,000   52,225,241   29,600,170   -22,625,072    76.4%       Out1P.xls   2120     2108            2127

   2a       Case1a, -3% FY09-20 TFP             In15N1.xls   Out2a.xls    177,518,739   80,052,477   69,934,526   -10,117,951    14.5%       Out1P.xls   2117     2108      y     2127
   2b       Case1b, -3% FY09-20 TFP             In15N1.xls   Out2b.xls    150,000,000   73,033,813   59,200,339   -13,833,473    23.4%       Out1P.xls   2116     2108            2127
   2c       Case1c -3% FY09-20 TFP              In15N1.xls   Out2a.xls    125,000,000   66,599,337   49,333,616   -17,265,721    35.0%       Out1P.xls   2118     2108            2127
   2d       Case1d, -3% FY09-20 TFP             In15N1.xls   Out2a.xls    100,000,000   60,164,861   39,466,893   -20,697,968    52.4%       Out1P.xls   2119     2108            2127
   2e       Case1e, -3% FY09-20 TFP             In15N1.xls   Out2a.xls     75,000,000   53,730,385   29,600,170   -24,130,216    81.5%       Out1P.xls   2120     2108            2127

   3a       Case1a, +3% FY09-20 TFP             In15N2.xls   Out3a.xls    177,518,739   75,498,955   69,934,526 -5,564,429        8.0%       Out1P.xls   2117     2108      y     2127
   3b       Case1b, +3% FY09-20 TFP             In15N2.xls   Out3b.xls    150,000,000   68,889,144   59,200,339 -9,688,805       16.4%       Out1P.xls   2116     2108            2127
   3c       Case1c +3% FY09-20 TFP              In15N2.xls   Out3a.xls    125,000,000   62,829,492   49,333,616 -13,495,876      27.4%       Out1P.xls   2118     2108            2127
   3d       Case1d, +3% FY09-20 TFP             In15N2.xls   Out3a.xls    100,000,000   56,769,840   39,466,893 -17,302,948      43.8%       Out1P.xls   2119     2108            2127
   3e       Case1e, +3% FY09-20 TFP             In15N2.xls   Out3a.xls     75,000,000   50,710,188   29,600,170 -21,110,019      71.3%       Out1P.xls   2120     2108            2127

   4a       Case 1a w/2030 costs, 2020 volume    In10.xls    Out4a.xls    177,518,739   77,783,916   69,934,526    -7,849,390    11.2%       Out1P.xls   2117     2108      y     2127
   4b       Case 1b w/2030 costs, 2020 volume    In10.xls    Out4b.xls    150,000,000   70,970,205   59,200,339   -11,769,866    19.9%       Out1P.xls   2116     2108            2127
   4c       Case 1c w/2030 costs, 2020 volume    In10.xls    Out4a.xls    125,000,000   64,723,626   49,333,616   -15,390,010    31.2%       Out1P.xls   2118     2108            2127
   4d       Case 1d w/2030 costs, 2020 volume    In10.xls    Out4a.xls    100,000,000   58,477,047   39,466,893   -19,010,154    48.2%       Out1P.xls   2119     2108            2127
   4e       Case 1e w/2030 costs, 2020 volume    In10.xls    Out4a.xls     75,000,000   52,230,467   29,600,170   -22,630,298    76.5%       Out1P.xls   2120     2108            2127

   5a       Case 1a, BCG mix w/FCM cut 50%      In14Y.xls    Out5a.xls    177,518,739   80,631,937   68,844,148   -11,787,790    17.1%       Out1P.xls   2150     2108      y     2127
   5b       Case 1b, BCG mix w/FCM cut 50%      In14Y.xls    Out5b.xls    150,000,000   73,323,744   58,172,012   -15,151,733    26.0%       Out1P.xls   2149     2108            2127
   5c       Case 1c, BCG mix w/FCM cut 50%      In14Y.xls    Out5c.xls    125,000,000   66,684,457   48,476,676   -18,207,780    37.6%       Out1P.xls   2151     2108            2127
   5d       Case 1d, BCG mix w/FCM cut 50%      In14Y.xls    Out5c.xls    100,000,000   60,045,169   38,781,341   -21,263,828    54.8%       Out1P.xls   2152     2108            2127
   5e       Case 1e, BCG mix w/FCM cut 50%      In14Y.xls    Out5c.xls     75,000,000   53,405,881   29,086,006   -24,319,875    83.6%       Out1P.xls   2153     2108            2127

   6a       Case 1a with modified BCG mix       In14Y.xls    Out6a.xls    177,518,739   75,238,687   67,637,378    -7,601,309    11.2%       Out1P.xls   2133     2108      y     2127
   6b       Case 1b with modified BCG mix       In14Y.xls    Out6b.xls    150,000,000   68,766,549   57,152,314   -11,614,235    20.3%       Out1P.xls   2134     2108            2127
   6c       Case 1c with modified BCG mix       In14Y.xls    Out6a.xls    125,000,000   62,886,794   47,626,928   -15,259,866    32.0%       Out1P.xls   2135     2108            2127
   6d       Case 1d with modified BCG mix       In14Y.xls    Out6a.xls    100,000,000   57,007,039   38,101,543   -18,905,496    49.6%       Out1P.xls   2136     2108            2127
   6e       Case 1e with modified BCG mix       In14Y.xls    Out6a.xls     75,000,000   51,127,284   28,576,157   -22,551,127    78.9%       Out1P.xls   2137     2108            2127
                                                                                                                                                      B-25
                                      Table B-5b. GMU Sustainability Case Results (continued)
    A                        B                      P            Q            R          S          T          U           V              W
Start Row                   40
End Row                     41
                                                   Adj           Adj          Adj        Adj     Adj BrkEv     Adj     Adj Ann BE    Date and Time
  Case #                Description               Volume       Revenue       Cost       Profit   Rev/Pc %    Workyrs    Rev/Pc %        of Run

   0a       FY09 CRA                            173,043,620 70,739,413 70,739,516         -104        6.5% 715,130                  8/22/2010 16:16

   1a       Base case, 177.5B BCG mix           168,300,797   75,058,152   75,058,546     -394      13.2%    717,160     1.1%       8/26/2010 10:17
   1b       Base case: 150B BCG mix             136,762,136   67,076,664   67,076,842     -178      24.3%    636,342     2.0%       8/13/2010 9:38
   1c       Base case: 125B BCG mix             108,616,144   59,953,001   59,953,182     -181      39.9%    564,229     3.1%       8/13/2010 9:42
   1d       Base case: 100B BCG mix              81,337,533   53,113,067   53,113,332     -264      65.5%    494,640     4.7%       8/13/2010 9:46
   1e       Base case: 75B BCG mix               55,459,184   46,712,152   46,712,480     -328     113.4%    429,003     7.1%       8/13/2010 9:50

   2a       Case1a, -3% FY09-20 TFP             165,922,725   76,541,377   76,541,861     -484      17.1%    732,076     1.4%       8/24/2010 20:29
   2b       Case1b, -3% FY09-20 TFP             134,825,875   68,459,038   68,459,236     -198      28.7%    650,100     2.3%       8/13/2010 11:07
   2c       Case1c -3% FY09-20 TFP              107,082,814   61,248,541   61,248,728     -187      44.9%    576,987     3.4%       8/13/2010 11:12
   2d       Case1d, -3% FY09-20 TFP              80,202,018   54,326,429   54,326,710     -281      71.6%    506,442     5.0%       8/13/2010 11:17
   2e       Case1e, -3% FY09-20 TFP              54,706,655   47,848,653   47,848,961     -308     121.6%    439,904     7.5%       8/13/2010 11:22

   3a       Case1a, +3% FY09-20 TFP             170,803,791   73,572,917   73,573,217     -300       9.3%    702,211     0.8%       8/13/2010 11:54
   3b       Case1b, +3% FY09-20 TFP             138,802,806   65,691,478   65,691,634     -156      19.9%    622,564     1.7%       8/13/2010 11:58
   3c       Case1c +3% FY09-20 TFP              110,234,944   58,653,313   58,653,485     -173      34.8%    551,464     2.8%       8/13/2010 12:03
   3d       Case1d, +3% FY09-20 TFP              82,538,530   51,894,097   51,894,360     -263      59.3%    482,837     4.3%       8/13/2010 12:07
   3e       Case1e, +3% FY09-20 TFP              56,256,319   45,568,587   45,568,938     -351     105.2%    418,103     6.8%       8/13/2010 11:46

   4a       Case 1a w/2030 costs, 2020 volume   168,291,399   75,063,872   75,064,224     -352      13.2%    721,659     0.6%       8/28/2010 11:19
   4b       Case 1b w/2030 costs, 2020 volume   136,753,932   67,082,378   67,082,535     -157      24.3%    640,853     1.0%       8/28/2010 11:22
   4c       Case 1c w/2030 costs, 2020 volume   108,609,365   59,958,588   59,958,745     -158      39.9%    568,752     1.6%       8/28/2010 11:36
   4d       Case 1d w/2030 costs, 2020 volume    81,332,179   53,118,647   53,118,894     -247      65.5%    499,174     2.4%       8/28/2010 11:40
   4e       Case 1e w/2030 costs, 2020 volume    55,455,251   46,717,945   46,718,228     -282     113.5%    433,548     3.7%       8/28/2010 11:43

   5a       Case 1a, BCG mix w/FCM cut 50%      163,534,692   76,009,253   76,009,398     -145      19.8%    719,392     1.7%       8/14/2010 10:02
   5b       Case 1b, BCG mix w/FCM cut 50%      132,742,635   67,670,409   67,670,571     -162      31.5%    636,856     2.5%       8/14/2010 10:06
   5c       Case 1c, BCG mix w/FCM cut 50%      105,331,907   60,310,761   60,311,012     -251      47.6%    563,733     3.6%       8/14/2010 10:10
   5d       Case 1d, BCG mix w/FCM cut 50%       78,776,554   53,266,664   53,266,884     -220      74.4%    493,352     5.2%       8/14/2010 10:15
   5e       Case 1e, BCG mix w/FCM cut 50%       53,622,276   46,713,849   46,713,984     -135     124.6%    427,296     7.6%       8/14/2010 9:53

   6a       Case 1a with modified BCG mix       168,155,375   72,538,503   72,538,943     -440      13.2%    694,388     1.1%       8/16/2010 22:34
   6b       Case 1b with modified BCG mix       136,318,869   64,858,050   64,858,189     -139      24.9%    616,324     2.0%       8/16/2010 22:37
   6c       Case 1c with modified BCG mix       108,029,165   58,091,782   58,092,011     -229      41.1%    547,284     3.2%       8/13/2010 22:27
   6d       Case 1d with modified BCG mix        80,680,215   51,628,664   51,628,878     -214      68.0%    480,963     4.8%       8/13/2010 22:32
   6e       Case 1e with modified BCG mix        54,834,736   45,627,162   45,627,294     -132     118.4%    418,843     7.4%       8/13/2010 22:38
                                                                                                                                                                                    B-26
                                                   Table B-5c. GMU Sustainability Study Case Results (continued)
   A                          B                     C            D            E            F            G             H             I           K          L        M       N      O
Start Row                    40
End Row                      41
                                                 Factor       Output        Initial      Initial      Initial       Initial     Init BrkEv     Start     Volume   Rev/Pc   Save   Elas
 Case #                 Description               File       File (adj)    Volume         Cost       Revenue        Profit      Rev/Pc %       File       Col      Col            Col

   7a       Case 1a with FY09 mix               In14Y.xls    Out7a.xls    177,518,739   74,116,401   68,112,742    -6,003,659     8.8%       Out1P.xls    2102    2108      y     2127
   7b       Case 1b with FY09 mix               In14Y.xls    Out7b.xls    150,000,000   67,818,238   57,553,988   -10,264,251    17.8%       Out1P.xls    2103    2108            2127
   7c       Case 1c with FY09 mix               In14Y.xls    Out7a.xls    125,000,000   62,096,535   47,961,656   -14,134,879    29.5%       Out1P.xls    2105    2108            2127
   7d       Case 1d with FY09 mix               In14Y.xls    Out7a.xls    100,000,000   56,374,832   38,369,325   -18,005,507    46.9%       Out1P.xls    2106    2108            2127
   7e       Case 1e with FY09 mix               In14Y.xls    Out7a.xls     75,000,000   50,653,128   28,776,994   -21,876,135    76.0%       Out1P.xls    2107    2108            2127

   8a       Case 1a w/100% Mail Proc var %      In16N1.xls   Out8a.xls    177,518,739   77,824,959   69,934,526    -7,890,433    11.3%       Out1P.xls    2117    2108      y     2127
   8b       Case 1b w/100% Mail Proc var %      In16N1.xls   Out8b.xls    150,000,000   70,889,517   59,200,339   -11,689,178    19.7%       Out1P.xls    2116    2108            2127
   8c       Case 1c w/100% Mail Proc var %      In16N1.xls   Out8a.xls    125,000,000   64,531,711   49,333,616   -15,198,095    30.8%       Out1P.xls    2118    2108            2127
   8d       Case 1d w/100% Mail Proc var %      In16N1.xls   Out8a.xls    100,000,000   58,173,904   39,466,893   -18,707,011    47.4%       Out1P.xls    2119    2108            2127
   8e       Case 1e w/100% Mail Proc var %      In16N1.xls   Out8a.xls     75,000,000   51,816,098   29,600,170   -22,215,928    75.1%       Out1P.xls    2120    2108            2127

   9a       Case 1a w/83% Mail Proc var %        In0N2.xls   Out9a.xls    177,518,739   71,910,570   69,934,526    -1,976,043     2.8%       Out1P.xls    2117    2108      y     2127
   9b       Case 1b w/83% Mail Proc var %       In16N2.xls   Out9b.xls    150,000,000   71,108,505   59,200,339   -11,908,166    20.1%       Out1P.xls    2116    2108            2127
   9c       Case 1c w/83% Mail Proc var %       In16N2.xls   Out9a.xls    125,000,000   65,087,163   49,333,616   -15,753,547    31.9%       Out1P.xls    2118    2108            2127
   9d       Case 1d w/83% Mail Proc var %       In16N2.xls   Out9a.xls    100,000,000   59,065,820   39,466,893   -19,598,927    49.7%       Out1P.xls    2119    2108            2127
   9e       Case 1e w/83% Mail Proc var %       In16N2.xls   Out9a.xls     75,000,000   53,044,478   29,600,170   -23,444,308    79.2%       Out1P.xls    2120    2108            2127

   10a      Case 1a with 0.50 x elasticity      In14Y.xls    Out10a.xls   177,518,739   77,775,253   69,934,526    -7,840,727    11.2%       Out1P.xls    2117    2108      y     2145
   10b      Case 1b with 0.50 x elasticity      In14Y.xls    Out10b.xls   150,000,000   70,962,465   59,200,339   -11,762,126    19.9%       Out1P.xls    2116    2108            2145
   10c      Case 1c with 0.50 x elasticity      In14Y.xls    Out10a.xls   125,000,000   64,716,724   49,333,616   -15,383,108    31.2%       Out1P.xls    2118    2108            2145
   10d      Case 1d with 0.50 x elasticity      In14Y.xls    Out10a.xls   100,000,000   58,470,983   39,466,893   -19,004,090    48.2%       Out1P.xls    2119    2108            2145
   10e      Case 1e with 0.50 x elasticity      In14Y.xls    Out10a.xls    75,000,000   52,225,241   29,600,170   -22,625,072    76.4%       Out1P.xls    2120    2108            2145

   11a      Case 1a with 1.50 x elasticity      In14Y.xls    Out11a.xls   177,518,739   77,775,253   69,934,526    -7,840,727    11.2%       Out1P.xls    2117    2108      y     2139
   11b      Case 1b with 1.50 x elasticity      In14Y.xls    Out11b.xls   150,000,000   70,962,465   59,200,339   -11,762,126    19.9%       Out1P.xls    2116    2108            2139
   11c      Case 1c with 1.50 x elasticity      In14Y.xls    Out11a.xls   125,000,000   64,716,724   49,333,616   -15,383,108    31.2%       Out1P.xls    2118    2108            2139
   11d      Case 1d with 1.50 x elasticity      In14Y.xls    Out11a.xls   100,000,000   58,470,983   39,466,893   -19,004,090    48.2%       Out1P.xls    2119    2108            2139
   11e      Case 1e with 1.50 x elasticity      In14Y.xls    Out11a.xls    75,000,000   52,225,241   29,600,170   -22,625,072    76.4%       Out1P.xls    2120    2108            2139

   12a      Case 1a with OIG retail reduction   In12a.xls    Out12a.xls   177,518,739   75,675,716   69,934,526 -5,741,190        8.2%       Out1P.xls    2117    2108      y     2127
   12b      Case 1b with OIG retail reduction   In12a.xls    Out12b.xls   150,000,000   68,861,479   59,200,339 -9,661,139       16.3%       Out1P.xls    2116    2108            2127
   12c      Case 1c with OIG retail reduction   In12a.xls    Out12c.xls   125,000,000   62,614,415   49,333,616 -13,280,799      26.9%       Out1P.xls    2118    2108            2127
   12d      Case 1d with OIG retail reduction   In12a.xls    Out12c.xls   100,000,000   56,367,351   39,466,893 -16,900,458      42.8%       Out1P.xls    2119    2108            2127
   12e      Case 1e with OIG retail reduction   In12a.xls    Out12c.xls    75,000,000   50,120,287   29,600,170 -20,520,117      69.3%       Out1P.xls    2120    2108            2127
                                                                                                                                                B-27
                                  Table B-5d. GMU Sustainability Study Case Results (continued)
    A                        B                      P            Q            R          S        T         U         V             W
Start Row                    40
R Row
End                          41
                                                   Adj           Adj          Adj       Adj     Adj BE      Adj     Adj Ann    Date and Time
  Case #                Description               Volume       Revenue       Cost       Profit Rev/Pc %   Workyrs     BE %
                                                                                                                    Rev/Pc        of Run


    7a      Case 1a with FY09 mix               170,412,039   72,395,709   72,396,011    -301 10.7%       703,049    0.9%     8/13/2010 22:43
    7b      Case 1b with FY09 mix               138,420,972   65,029,528   65,029,643    -116 22.4%       625,820    1.9%     8/13/2010 22:49
    7c      Case 1c with FY09 mix               109,992,860   58,503,909   58,504,120    -211 38.6%       557,215    3.0%     8/13/2010 22:54
    7d      Case 1d with FY09 mix                82,479,491   52,213,479   52,213,669    -190 65.0%       490,826    4.7%     8/13/2010 23:00
    7e      Case 1e with FY09 mix                56,389,119   46,279,040   46,279,262    -222 113.9%      427,831    7.2%     8/13/2010 21:03

    8a      Case 1a w/100% Mail Proc var %      168,295,117   75,061,609   75,061,997    -389 13.2%       717,211    1.1%     8/13/2010 23:05
    8b      Case 1b w/100% Mail Proc var %      136,899,913   66,980,880   66,981,053    -172 24.0%       634,759    2.0%      8/14/2010 2:21
    8c      Case 1c w/100% Mail Proc var %      108,852,993   59,758,589   59,758,765    -176 39.1%       561,102    3.0%      8/14/2010 2:25
    8d      Case 1d w/100% Mail Proc var %       81,629,611   52,810,701   52,810,964    -262 63.9%       489,906    4.6%      8/14/2010 2:28
    8e      Case 1e w/100% Mail Proc var %       55,747,600   46,291,451   46,291,790    -339 110.4%      422,600    7.0%      8/14/2010 2:31

    9a      Case 1a w/83% Mail Proc var %       174,885,107   71,304,914   71,305,070    -155   3.5%      709,345    0.3%      8/14/2010 2:34
    9b      Case 1b w/83% Mail Proc var %       136,481,695   67,272,667   67,272,839    -172 24.9%       639,604    2.0%      8/14/2010 2:38
    9c      Case 1c w/83% Mail Proc var %       108,137,828   60,350,200   60,350,388    -189 41.4%       570,670    3.2%      8/14/2010 2:41
    9d      Case 1d w/83% Mail Proc var %        80,752,970   53,730,053   53,730,339    -285 68.6%       504,371    4.9%      8/14/2010 2:45
    9e      Case 1e w/83% Mail Proc var %        54,888,485   47,568,771   47,569,076    -305 119.6%      442,127    7.4%     8/13/2010 16:24

   10a      Case 1a with 0.50 x elasticity      171,519,765   76,378,634   76,378,791    -158    13.0%    727,835    1.1%     8/14/2010 10:53
   10b      Case 1b with 0.50 x elasticity      141,440,767   68,963,751   68,963,936    -185    23.5%    651,674    1.9%     8/14/2010 10:58
   10c      Case 1c with 0.50 x elasticity      114,461,866   62,254,182   62,254,454    -272    37.8%    583,054    3.0%     8/14/2010 11:02
   10d      Case 1d with 0.50 x elasticity       88,039,535   55,673,334   55,673,697    -363    60.2%    515,762    4.4%     8/14/2010 11:07
   10e      Case 1e with 0.50 x elasticity       62,465,514   49,289,437   49,289,552    -115    99.9%    450,493    6.5%     8/14/2010 11:12

   11a      Case 1a with 1.50 x elasticity      161,887,417   73,203,264   73,203,488    -225 14.8%       699,938    1.3%      8/14/2010 2:49
   11b      Case 1b with 1.50 x elasticity      127,642,717   64,488,296   64,488,414    -118 28.0%       612,134    2.3%     8/13/2010 15:52
   11c      Case 1c with 1.50 x elasticity       97,590,631   56,907,362   56,907,565    -203 47.7%       535,449    3.6%      8/14/2010 2:53
   11d      Case 1d with 1.50 x elasticity       69,378,992   49,926,601   49,926,900    -300 82.3%       464,084    5.6%      8/14/2010 2:57
   11e      Case 1e with 1.50 x elasticity       44,084,761   43,821,898   43,822,427    -529 151.9%      400,692    8.8%     8/13/2010 15:44

   12a      Case 1a with OIG retail reduction   170,629,396   73,673,985   73,674,305    -319   9.6%      693,855    0.8%     8/28/2010 9:10
   12b      Case 1b with OIG retail reduction   138,873,696   65,644,621   65,644,781    -160 19.8%       612,760    1.7%     8/28/2010 9:16
   12c      Case 1c with OIG retail reduction   110,483,348   58,459,762   58,459,928    -166 34.1%       540,237    2.7%     8/28/2010 9:24
   12d      Case 1d with OIG retail reduction    82,900,777   51,538,739   51,539,018    -279 57.5%       470,035    4.2%     8/28/2010 9:30
   12e      Case 1e with OIG retail reduction    56,645,499   45,031,548   45,031,939    -391 101.4%      403,506    6.6%     8/28/2010 9:52
                                                                                                                                                                                       B-28
                                                        Table B-5e. GMU Sustainability Study Case Results (continued)

     A                        B                          C            D            E            F            G             H             I           K          L        M       N      O
Start Row                     40
End Row                       41
                                                       Factor      Output        Initial      Initial      Initial       Initial     Init BrkEv     Start     Volume   Rev/Pc   Save   Elas
  Case #                 Description                    File      File (adj)    Volume         Cost       Revenue        Profit      Rev/Pc %        File      Col      Col            Col

   13a      Case 1a w/OIG health #2, FERS             In22.xls    Out13a.xls   177,518,739   69,539,708   69,934,526     394,819      -0.6%       Out1P.xls    2117    2108      y     2127
   13b      Case 1b w/OIG health #2, FERS             In22.xls    Out13b.xls   150,000,000   62,725,470   59,200,339 -3,525,131        6.0%       Out1P.xls    2116    2108            2127
   13c      Case 1c w/OIG health #2, FERS             In22.xls    Out13a.xls   125,000,000   56,478,406   49,333,616 -7,144,790       14.5%       Out1P.xls    2118    2108            2127
   13d      Case 1d w/OIG health #2, FERS             In22.xls    Out13a.xls   100,000,000   50,231,342   39,466,893 -10,764,450      27.3%       Out1P.xls    2119    2108            2127
   13e      Case 1e w/OIG health #2, FERS             In22.xls    Out13a.xls    75,000,000   43,984,278   29,600,170 -14,384,109      48.6%       Out1P.xls    2120    2108            2127

   14a      Case 1a with +3% USPS salaries            In17a.xls   Out14a.xls   177,518,739   79,345,027   69,934,526    -9,410,500    13.5%       Out1P.xls    2117     2108     y     2127
   14b      Case 1b with +3% USPS salaries            In17a.xls   Out14b.xls   150,000,000   72,383,690   59,200,339   -13,183,351    22.3%       Out1P.xls    2116     2108           2127
   14c      Case 1c with +3% USPS salaries            In17a.xls   Out14a.xls   125,000,000   66,002,396   49,333,616   -16,668,780    33.8%       Out1P.xls    2118     2108           2127
   14d      Case 1d with +3% USPS salaries            In17a.xls   Out14a.xls   100,000,000   59,621,102   39,466,893   -20,154,209    51.1%       Out1P.xls    2119     2108           2127
   14e      Case 1e with +3% USPS salaries            In17a.xls   Out14a.xls    75,000,000   53,239,808   29,600,170   -23,639,638    79.9%       Out1P.xls    2120     2108           2127

   15a      Case 1a with -3% USPS salaries            In17b.xls   Out15a.xls   177,518,739   76,206,405   69,934,526    -6,271,879     9.0%       Out1P.xls    2117     2108     y     2127
   15b      Case 1b with -3% USPS salaries            In17b.xls   Out15b.xls   150,000,000   69,539,267   59,200,339   -10,338,928    17.5%       Out1P.xls    2116     2108           2127
   15c      Case 1c with -3% USPS salaries            In17b.xls   Out15a.xls   125,000,000   63,426,433   49,333,616   -14,092,817    28.6%       Out1P.xls    2118     2108           2127
   15d      Case 1d with -3% USPS salaries            In17b.xls   Out15a.xls   100,000,000   57,313,599   39,466,893   -17,846,707    45.2%       Out1P.xls    2119     2108           2127
   15e      Case 1e with -3% USPS salaries            In17b.xls   Out15a.xls    75,000,000   51,200,766   29,600,170   -21,600,596    73.0%       Out1P.xls    2120     2108           2127

   16a      Case 1a with -10% all fixed costs         In18.xls    Out16a.xls   177,518,739   74,863,289   69,934,526 -4,928,763        7.0%       Out1P.xls    2117    2108      y     2127
   16b      Case 1b with -10% all fixed costs         In18.xls    Out16b.xls   150,000,000   68,049,052   59,200,339 -8,848,712       14.9%       Out1P.xls    2116    2108            2127
   16c      Case 1c with -10% all fixed costs         In18.xls    Out16a.xls   125,000,000   61,801,988   49,333,616 -12,468,372      25.3%       Out1P.xls    2118    2108            2127
   16d      Case 1d with -10% all fixed costs         In18.xls    Out16a.xls   100,000,000   55,554,924   39,466,893 -16,088,031      40.8%       Out1P.xls    2119    2108            2127
   16e      Case 1e with -10% all fixed costs         In18.xls    Out16a.xls    75,000,000   49,307,860   29,600,170 -19,707,690      66.6%       Out1P.xls    2120    2108            2127

   17a      Case 1a w/OIG retiree health #1           In19.xls    Out17a.xls   177,518,739   75,602,932   69,934,526 -5,668,406        8.1%       Out1P.xls    2117    2108      y     2127
   17b      Case 1b w/OIG retiree health #1           In19.xls    Out17b.xls   150,000,000   68,790,144   59,200,339 -9,589,805       16.2%       Out1P.xls    2116    2108            2127
   17c      Case 1c w/OIG retiree health #1           In19.xls    Out17a.xls   125,000,000   62,544,403   49,333,616 -13,210,787      26.8%       Out1P.xls    2118    2108            2127
   17d      Case 1d w/OIG retiree health #1           In19.xls    Out17a.xls   100,000,000   56,298,662   39,466,893 -16,831,769      42.6%       Out1P.xls    2119    2108            2127
   17e      Case 1e w/OIG retiree health #1           In19.xls    Out17a.xls    75,000,000   50,052,921   29,600,170 -20,452,751      69.1%       Out1P.xls    2120    2108            2127

   18a      Case 1a with 3.1b cut in fix deliv cost   In11.xls    Out18a.xls   177,518,739   74,675,716   69,934,526 -4,741,190        6.8%       Out1P.xls    2117    2108      y     2127
   18b      Case 1b with 3.1b cut in fix deliv cost   In11.xls    Out18b.xls   150,000,000   67,861,479   59,200,339 -8,661,139       14.6%       Out1P.xls    2116    2108            2127
   18c      Case 1c with 3.1b cut in fix deliv cost   In11.xls    Out18a.xls   125,000,000   61,614,415   49,333,616 -12,280,799      24.9%       Out1P.xls    2118    2108            2127
   18d      Case 1d with 3.1b cut in fix deliv cost   In11.xls    Out18a.xls   100,000,000   55,367,351   39,466,893 -15,900,458      40.3%       Out1P.xls    2119    2108            2127
   18e      Case 1e with 3.1b cut in fix deliv cost   In11.xls    Out18a.xls    75,000,000   49,120,287   29,600,170 -19,520,117      65.9%       Out1P.xls    2120    2108            2127

   19a      Case 1a w/OIG retail, health#2, FERS      In21.xls    Out19a.xls   177,518,739   65,845,975   69,934,526 4,088,551        -5.8%       Out1P.xls    2117    2108      y     2127
   19b      Case 1b w/OIG retail, health#2, FERS      In21.xls    Out19b.xls   150,000,000   59,174,836   59,200,339      25,503       0.0%       Out1P.xls    2116    2108            2127
   19c      Case 1c w/OIG retail, health#2, FERS      In21.xls    Out19a.xls   125,000,000   53,058,961   49,333,616 -3,725,345        7.6%       Out1P.xls    2118    2108            2127
   19d      Case 1d w/OIG retail, health#2, FERS      In21.xls    Out19a.xls   100,000,000   46,943,085   39,466,893 -7,476,192       18.9%       Out1P.xls    2119    2108            2127
   19e      Case 1e w/OIG retail, health#2, FERS      In21.xls    Out19a.xls    75,000,000   40,827,210   29,600,170 -11,227,040      37.9%       Out1P.xls    2120    2108            2127
                                                                                                                                              B-29
                                  Table B-5f. GMU Sustainability Study Case Results (continued)

   A                         B                       P           Q            R          S        T         U        V            W
Start Row                    40
End Row                      41
                                                   Adj          Adj          Adj         Adj Adj BrkEv   Adj    Adj Ann BE Date and Time
 Case #                 Description               Volume      Revenue        Cost       Profit Rev/Pc % Workyrs Rev/Pc %      of Run

   13a      Case 1a w/OIG health #2, FERS       178,010,201   69,686,382   69,686,247     136     -0.6%   743,569   -0.1%   8/27/2010 21:19
   13b      Case 1b w/OIG health #2, FERS       145,753,176   61,462,440   61,462,754    -313      6.8%   660,632    0.6%   8/27/2010 21:24
   13c      Case 1c w/OIG health #2, FERS       116,743,642   54,043,218   54,043,361    -143     17.3%   585,932    1.5%   8/27/2010 20:49
   13d      Case 1d w/OIG health #2, FERS        88,315,128   46,823,419   46,823,584    -165     34.3%   512,982    2.7%   8/27/2010 20:54
   13e      Case 1e w/OIG health #2, FERS        60,903,184   39,939,260   39,939,521    -261     66.2%   443,005    4.7%   8/27/2010 20:59

   14a      Case 1a with +3% USPS salaries      166,644,418   76,083,531   76,083,973    -442     15.9%   712,692   1.3%    8/14/2010 3:24
   14b      Case 1b with +3% USPS salaries      135,418,192   68,028,844   68,029,029    -185     27.3%   632,744   2.2%    8/14/2010 3:29
   14c      Case 1c with +3% USPS salaries      107,556,103   60,841,691   60,841,869    -178     43.3%   561,427   3.3%    8/14/2010 3:34
   14d      Case 1d with +3% USPS salaries       80,556,876   53,940,635   53,940,905    -270     69.7%   492,610   4.9%    8/14/2010 3:39
   14e      Case 1e with +3% USPS salaries       54,945,926   47,481,063   47,481,362    -299    119.0%   427,697   7.4%    8/13/2010 16:50

   15a      Case 1a with -3% USPS salaries      170,015,378   74,032,665   74,033,005    -340     10.5%   721,796   0.9%    8/14/2010 3:44
   15b      Case 1b with -3% USPS salaries      138,155,708   66,123,053   66,123,205    -151     21.3%   640,081   1.8%    8/14/2010 3:49
   15c      Case 1c with -3% USPS salaries      109,717,934   59,061,097   59,061,279    -182     36.4%   567,149   2.9%    8/14/2010 3:55
   15d      Case 1d with -3% USPS salaries       82,151,006   52,280,467   52,280,742    -275     61.2%   496,760   4.4%    8/14/2010 4:00
   15e      Case 1e with -3% USPS salaries       55,995,274   45,936,507   45,936,866    -359    107.9%   430,369   6.9%    8/13/2010 17:00

   16a      Case 1a with -10% all fixed costs   171,605,253   73,112,951   73,113,280    -330      8.1%   697,204   0.7%    8/14/2010 11:25
   16b      Case 1b with -10% all fixed costs   139,798,006   65,041,164   65,041,309    -144     17.9%   615,598   1.5%    8/13/2010 21:30
   16c      Case 1c with -10% all fixed costs   111,333,062   57,809,066   57,809,223    -157     31.6%   542,539   2.5%    8/14/2010 11:33
   16d      Case 1d with -10% all fixed costs    83,637,513   50,832,837   50,833,114    -277     54.0%   471,744   4.0%    8/14/2010 11:38
   16e      Case 1e with -10% all fixed costs    57,219,001   44,264,327   44,264,447    -119     96.0%   404,597   6.3%    8/14/2010 14:05

   17a      Case 1a w/OIG retiree health #1     170,752,667   73,602,509   73,602,700    -191      9.4%   723,791   0.8%    8/14/2010 4:04
   17b      Case 1b w/OIG retiree health #1     139,011,356   65,553,866   65,554,158    -292     19.5%   642,379   1.6%    8/14/2010 4:09
   17c      Case 1c w/OIG retiree health #1     110,625,285   58,349,851   58,349,970    -119     33.6%   569,556   2.7%    8/14/2010 4:14
   17d      Case 1d w/OIG retiree health #1      83,034,536   51,408,918   51,409,109    -191     56.9%   499,066   4.2%    8/14/2010 4:18
   17e      Case 1e w/OIG retiree health #1      56,754,225   44,883,917   44,884,242    -325    100.4%   432,306   6.5%    8/13/2010 20:55

   18a      Case 1a with 3.1b cut in fix deliv cost 171,822,836 72,989,343 72,989,662    -319      7.8%   682,214   0.7%    8/14/2010 4:23
   18b      Case 1b with 3.1b cut in fix deliv cost 139,998,746 64,911,922 64,912,064    -142     17.5%   600,559   1.5%    8/14/2010 4:28
   18c      Case 1c with 3.1b cut in fix deliv cost 111,513,663 57,672,994 57,673,150    -156     31.0%   527,441   2.5%    8/14/2010 4:33
   18d      Case 1d with 3.1b cut in fix deliv cost 83,791,519 50,688,059 50,688,336     -277     53.3%   456,568   4.0%    8/14/2010 4:39
   18e      Case 1e with 3.1b cut in fix deliv cost 57,338,177 44,108,398 44,108,788     -391     94.9%   389,323   6.3%    8/13/2010 16:36

   19a      Case 1a w/OIG retail, health#2, FERS 182,820,786 67,375,062 67,374,777        285     -6.5%   710,407   -0.6%   8/31/2010 21:41
   19b      Case 1b w/OIG retail, health#2, FERS 150,032,011 59,184,109 59,184,036         73      0.0%   628,115    0.0%   8/31/2010 21:19
   19c      Case 1c w/OIG retail, health#2, FERS 120,485,048 51,772,098 51,772,488       -389      8.9%   553,816    0.8%   8/31/2010 21:24
   19d      Case 1d w/OIG retail, health#2, FERS 91,441,713 44,532,803 44,532,927        -125     23.4%   481,012    1.9%   8/31/2010 21:28
   19e      Case 1e w/OIG retail, health#2, FERS 63,305,579 37,588,790 37,589,013        -223     50.4%   410,789    3.8%   8/31/2010 21:33
